<html>
<title> - TERROR INMATES: COUNTERING VIOLENT EXTREMISM IN PRISON AND BEYOND</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   TERROR INMATES: COUNTERING VIOLENT EXTREMISM IN PRISON AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

                           Serial No. 114-40

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
99-746 PDF                    WASHINGTON : 2016                      
________________________________________________________________________________________                              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Mr. Jerome P. Bjelopera, Specialist in Organized Crime and 
  Terrorism, Congressional Research Service, Library of Congress:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Mr. Tony C. Parker, Assistant Commissioner, Department of 
  Correction, State of Tennessee:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Brian H. Levin, Professor, Department of Criminal Justice, 
  and Director, Center for Study of Hate and Extremism, 
  California State University, San Bernardino:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19

 
   TERROR INMATES: COUNTERING VIOLENT EXTREMISM IN PRISON AND BEYOND

                              ----------                              


                      Wednesday, October 28, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Barletta, Katko, Hurd, 
Higgins, Keating, Vela, and Thompson.
    Also present: Representatives Langevin and Jackson Lee.
    Mr. King. Good morning. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence will come to 
order.
    The subcommittee is meeting today to hear testimony from 
three distinguished experts regarding radicalization in U.S. 
prisons. I would like to welcome the Members of the 
subcommittee and express my appreciation for the witnesses who 
are here today, and I now recognize myself for an opening 
statement.
    The United States is facing a long-term growing threat of 
terrorism from ISIS and other radical Islamist terrorist 
groups. At least 55 people in the United States have been 
arrested for links to ISIS so far this year. Over the past 
several years, approximately 200 more have travelled to the 
Middle East to join the terror group. Just last week, FBI 
Director Comey stated that the FBI had an estimated 900 active 
investigations of suspected Islamic State-inspired operatives 
and other home-grown violent extremists across the United 
States, and as previously noted, that such investigations are 
taking place in all 50 States. There can be no doubt that we 
have an extremism problem in the United States.
    Even more disturbing is that there are an unknown number of 
people who are watching terror propaganda and potentially being 
radicalized but who are not on law enforcement's radar. 
Compelled by this Jihadist propaganda, these individuals could 
choose to carry out a small-scale attack with little planning 
and no notice.
    DHS Secretary Johnson and Director Comey have done an 
excellent job over the past year communicating with the public 
about this threat, and their agencies are stretched to the 
limit in their efforts to investigate, arrest, and prosecute 
terrorists walking the streets.
    An issue that rarely comes up, however, is how the United 
States is preparing to ensure that the 100-plus individuals in 
Federal prison for links to terrorism who will be released in 
the next 5 years do not pose a continued threat to the 
homeland. In the wake of 9/11, our Federal, State, and local 
law enforcement did great work in arresting and prosecuting 
potential terrorists, but we cannot forget about these 
individuals once they are incarcerated because 90 percent will 
eventually be released. We have never been faced with such 
large numbers of terror inmates before.
    When this committee held a hearing in 2011 on prison 
radicalization, the primary focus was on the threat of inmates 
being radicalized once in prison. There are still a number of 
concerns related to how prisoners are monitored, how employees 
are trained to watch for possible signs of radicalization, and 
how religious service providers are vetted.
    We are all familiar with the known cases of individuals who 
became radicalized inside prison and then attempted to carry 
out attacks within the homeland, cases like Kevin James and 
Jose Padilla. Prison radicalization is not unique to the United 
States. In France, of course, the Charlie Hebdo attackers were 
radicalized in prison. In the United States, the challenge of 
prison radicalization, both within prison and once inmates are 
released, must be addressed with consistent proactive 
information sharing among Federal agencies, including the 
Federal Bureau of Prisons and State and local partners, close 
cooperation among prison chaplains of all faiths and with law 
enforcement, and careful monitoring of former inmates after 
they are released into society.
    The goal of this hearing is to have a public discussion 
about the eventual release of hundreds of individuals serving 
time for terrorism and to understand what is being done to 
prevent further radicalization within the prison system. We 
welcome today our distinguished panel of experts to testify 
about the current risk of prison radicalization, for providing 
their views in current Government programs, and the lack of 
sufficient programs, and provide recommendations to help the 
Federal Government and Congress create an effective response to 
this situation.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from New York, my good friend, Mr. Higgins, for his 
opening statement.
    Mr. Higgins. Mr. Chairman, I would like to thank you for 
holding this, today's hearing, to explore the detention and 
monitoring of radical ideology in prisons, and to ensure that 
information is shared between corrections personnel and law 
enforcement before the release of inmates, while understanding 
the limitations of sharing such information after an inmate's 
release from prison.
    As we begin today's discussion, I believe it is important 
to distinguish between the terms radicalization and terrorism. 
Under the First Amendment, an individual's thought and speech 
are protected, including radical and extremist thought and 
speech. When radicalized individuals move from radicalized 
thought to illegal terrorist activity and other crimes, the 
criminal activity is not protected.
    Based on that distinction, I am hopeful that today's 
discussion will focus on how we can prevent former inmates from 
becoming a terrorist actor upon release. It is difficult to 
predict the behavior of an incarcerated individual upon release 
from prison. By its nature, a prison may bring together 
disaffected people who might be receptive to antisocial 
messages offering intolerant solutions to complex problems of 
identity and belonging.
    Therefore, it should not come as a surprise that some 
disaffected prisoners may join extremist groups and engage in 
extreme behavior in an attempt to find meaning, establish 
bonds, or combat a sense of fear and alienation within prison 
walls. Since 9/11, more than 250 people have been convicted for 
their involvement in home-grown violent Jihadist plots. 
However, an analysis of home-grown violent Jihadist activity 
since 9/11 showed that these plots have nearly always featured 
people who radicalized outside of prison.
    This statistic and similar numbers prove, despite a few 
high-profile cases, terrorism plots among prison-radicalized 
violent Muslim extremists are rare, but we must remain 
vigilant. Radicalization in prisons remains a concern abroad 
both in non-Muslim and Muslim-majority countries. Middle 
Eastern governments have struggled to contain violent 
radicalization in their prisons and have developed innovative 
approaches to addressing the issue with varying degrees of 
success.
    The United States does not have prisoner deradicalization 
programs, as many of our Constitutional rights do not permit 
aspects of several of these programs conducted abroad. Today, I 
hope we can have a robust discussion of the existence of these 
programs as we seek to understand whether post-prison 
countering violent extremist reentry programs may be helpful in 
reducing recidivism and decreasing the allure of committing a 
terrorist attack upon release from prison.
    I yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                            October 28, 2015
    Mr. Chairman, I would like to thank you for holding today's hearing 
to explore the detection and monitoring of radical ideology in prisons 
and ensure that information is shared between corrections personnel and 
law enforcement before the release of inmates, while understanding the 
limitations of sharing such information after an inmate's release from 
prison.
    As we begin today's discussion, I believe it is important to 
distinguish the terms ``radicalization'' and ``terrorism.'' Under the 
First Amendment, an individual's thought and speech are protected, 
including radical and extremist thought and speech. When radicalized 
individuals move from radicalized thought to illegal terrorist activity 
or other crimes, the criminal activity is not protected.
    Based on that distinction, I am hopeful that today's discussion 
will focus on how we can prevent former inmates from becoming a 
terrorist actor upon release. It is it difficult to predict the 
behavior of an incarcerated individual upon release from prison. By its 
nature, prison may bring together disaffected people who might be 
receptive to anti-social messages offering intolerant solutions to 
complex problems of identity and belonging.
    Therefore, it should not come as a surprise that some disaffected 
prisoners may join extreme groups and engage in extreme behavior in an 
attempt to find meaning, establish bonds, or combat a sense of fear and 
alienation within prison walls.
    Since 9/11, more than 250 people have been convicted for their 
involvement in home-grown violent jihadist plots. However, an analysis 
of home-grown violent jihadist activity since 9/11, showed that these 
plots have nearly always featured people who radicalized outside of 
prison.
    This statistic and similar numbers prove, despite a few high-
profile cases, terrorism plots among prison-radicalized, violent, 
Muslim extremists are rare.
    But we must remain vigilant. Radicalization in prisons remains a 
concern abroad, both in non-Muslim and Muslim-majority countries. 
Middle Eastern governments have struggled to contain violent 
radicalization in their prisons, and have developed innovative 
approaches to addressing the issue, with varying degrees of success.
    The United States does not have prisoner deradicalization programs, 
as many of our Constitutional rights do not permit aspects of several 
of the CVE programs conducted abroad.
    Today, I hope we can have a robust discussion of the existence of 
these CVE programs as we seek to understand whether post-prison CVE re-
entry programs may be helpful in reducing recidivism and decreasing the 
allure of committing a terrorist act upon release from prison.

    Mr. King. Thank you, Ranking Member Higgins.
    I now recognize the Ranking Member and former Chairman of 
the full committee, Mr. Thompson, for a statement.
    Mr. Thompson. Thank you very much, Mr. Chairman and former 
Chairman of the full committee. I would like to thank you for 
calling this hearing to examine current prison counter-violent 
extremism programs and explore the development of such programs 
for inmates post-release.
    The United States holds an estimated 1.5 million prisoners 
in State and Federal custody at the end of 2014. While that 
number is down 1 percent from the previous year, the United 
States continues to have the highest-documented incarceration 
rate in the world.
    I am aware that most of today's discussion will likely 
focus on a possible radicalization of Muslim inmates; however, 
I would like to encourage the committee to remember that 
limiting this committee's oversight of radicalization to one 
religion ignores threats posed by violent extremists of all 
religious and ethnic backgrounds.
    Violent gangs organized along racial and ethnic lines exist 
throughout United States prisons. The National Gang 
Intelligence Center has assessed that major gangs pose a 
serious domestic threat, particularly National-level prison 
gangs that maintain substantial influence over street gangs. In 
some cases, counting incarcerated members as well as affiliated 
individuals outside of correctional facilities, prison gangs 
can wield influence over thousands of individuals, both 
incarcerated and free, throughout the United States.
    It is clear that prison gangs often pose a security threat 
to prisoners and prison staff, as well as the American public. 
Some prison gangs delve into radical or extremist ideologies, 
and in a number of instances these ideologies are integral in 
fashion to cohesive group identities within prison walls. 
Several gangs in America's prisons subscribe to white 
supremacist beliefs, views broadly shared by some domestic 
extremist groups such as the Aryan Nation, the National 
Socialist Party, and the National Alliance.
    For example, the Aryan Brotherhood is a particularly 
dangerous National-level gang with approximately 15,000 members 
in and out of prison. In June 1998, James Byrd, a particularly 
disabled black man, was dragged to his death by 3 ex-convicts, 
2 of whom were members of the Aryan Brotherhood and the other 
was seeking membership with that group. The presence of these 
types of intact and operational gang organizations, coupled 
with the ability of their leaders to control and direct 
operations outside of the prison from within the prison's walls 
should not be ignored.
    The willingness of these groups to use violence, undermine 
order, and commit mayhem is not dependent on religious belief 
or political ideology, nor do these groups limit their 
terrorist acts to prison walls. The use of a prison as a 
platform for collaboration between both criminal and extremist 
gangs and groups, pose a real and present threat to our 
homeland. With that, Mr. Chair, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            October 28, 2015
    Mr. Chairman, I would like to thank you for holding this hearing to 
examine current prison countering violent extremism programs and 
explore the development of such programs for inmates post-release. The 
United States held an estimated 1.5 million prisoners in State and 
Federal custody at the end of 2014.
    While that number was down 1% from the previous year, the United 
States continues to have the highest documented incarceration rate in 
the world. I am aware that most of today's discussion will likely focus 
on the possible radicalization of Muslim inmates. However, I would 
encourage the committee to remember that limiting this committee's 
oversight of radicalization to one religion ignores threats posed by 
violent extremists of all religious and ethnic backgrounds.
    Violent gangs organized along racial and ethnic lines exist 
throughout U.S. prisons. The National Gang Intelligence Center has 
assessed that major prison gangs pose a serious domestic threat, 
particularly National-level prison gangs that maintain substantial 
influence over street gangs.''
    In some cases, counting incarcerated members as well as affiliated 
individuals outside of correctional facilities, prison gangs can wield 
influence over thousands of individuals, both incarcerated and free, 
throughout the United States. It is clear that prison gangs often pose 
a security threat to prisoners and prison staff as well as the American 
public.
    Some prison gangs delve into radical or extremist ideologies, and 
in a number of instances, these ideologies are integral to fashioning 
cohesive group identities within prison walls. Several gangs in 
America's prisons subscribe to white supremacist beliefs, views broadly 
shared by some domestic extremist groups such as the Aryan Nation, the 
National Socialist Party, and the National Alliance.
    For example, the Aryan Brotherhood is a particularly dangerous, 
National-level gang with approximately 15,000 members in and out of 
prison. In June 1998, James Byrd, a partially-disabled black man, was 
dragged to his death by 3 ex-convicts, 2 of whom were members of the 
Aryan Brotherhood and the other who was seeking membership with this 
group.
    The presence of these types of intact and operational gang 
organizations coupled with the ability of their leaders to control and 
direct operations outside of prison from within the prison walls should 
not be ignored. The willingness of these groups to use violence, 
undermine order, and commit mayhem is not dependent on religious belief 
or political ideology nor do these groups limit their terrorist acts to 
prison walls.
    The use of prison as a platform for collaboration between both 
criminal and extremist gangs and groups poses a real and present threat 
to our homeland.

    Mr. King. I thank the full committee Ranking Member. 
Bennie, I just want you to know that even though the emphasis--
my emphasis today is on Islamist radicalization in prison, I 
agree with every word you said. We are in full agreement 
underneath, sir.
    Mr. Thompson. Thank you.
    Mr. King. Has to be done in prisons.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this important topic.
    Our first witness is a person who often does a lot of the 
work for us and doesn't get the credit for it. I am glad to 
give you the credit today, Mr. Jerry Bjelopera, as a specialist 
in organized crime and terrorism with the Congressional 
Research Service. He has authored or coauthored more than 35 
reports for Congress on homeland security and intelligence 
issues.
    Jerry has been a valued asset to the committee on Homeland 
Security and has assisted in a number of oversight and 
investigative projects, including prison radicalization, the 
DHS intelligence enterprise, and the Boston Marathon bombing 
investigation. Jerry, I do want to thank for your service and 
especially for what you do, you know, for this committee and 
have done for us over the years. With that, Jerry, you are 
recognized.

STATEMENT OF JEROME P. BJELOPERA, SPECIALIST IN ORGANIZED CRIME 
   AND TERRORISM, CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF 
                            CONGRESS

    Mr. Bjelopera. Chairman King, Ranking Member Higgins, 
Ranking Member Thompson, and Members of subcommittee, my name 
is Jerry Bjelopera. Thank you for the opportunity to testify 
today on behalf of the Congressional Research Service. My 
testimony attempts to frame the issue of violent jihadist 
radicalization in U.S. prisons.
    Since 9/11, the vast majority of home-grown violent 
jihadists have not radicalized behind bars. Far more often the 
shift from law-abiding citizen to terrorist has involved other 
social environments and contexts. In fact, most home-grown 
violent jihadists radicalize via virtual or in-person 
interactions that can depend on powerful relationships such as 
face-to-face or on-line friendship networks or family ties.
    CRS has identified more than 120 post-9/11 home-grown 
violent jihadist conspiracies. Only one of these plots included 
participants who had clearly radicalized while serving time 
behind bars in the United States. This suggests that domestic 
prisons are not fertile grounds for the nurturing of future 
jihadist terrorists. However, two important caveats likely 
limit this observation.
    These two points suggest that U.S. correctional 
institutions cannot be dismissed as potential radicalization 
arenas. The first caveat. We don't know the actual extent of 
jihadist influence in U.S. prisons. No solid publicly-available 
estimates exist either of the number of people imparting 
violent jihadist messages in U.S. prisons or their followers. 
Social interaction in prison might offer opportunities for 
convicts unfamiliar with terrorist world views to learn about 
them and to radicalize.
    Violent jihadists embrace intolerant interpretations of 
Islam, the fastest-growing faith in U.S. prisons. Some 
disaffected prisoners adopt versions of the religion that stray 
far from broadly-accepted sects and schools of thought. Some 
espouse forms of Islam that may incorporate radical viewpoints 
and violent rhetoric.
    Other extremist viewpoints such as white supremacy have 
taken root behind bars, suggesting that it may be possible for 
violent jihadists to circulate their messages in similar 
settings. A number of gangs in U.S. prisons recruit and 
organize around extremist but not jihadist ideologies. The 
beliefs that such gangs have adopted helped them to 
indoctrinate new members. However, these gangs tend not to use 
their idealogical systems to justify terrorist acts. Rather, 
groups like white supremacist gangs focus on maintaining their 
own cohesion and profiting from crimes like drug trafficking 
while incarcerated.
    The second caveat. It is unclear whether incarceration in 
U.S. prisons fosters deeper commitment to radical violence 
among people already jailed on terrorist charges. We will 
likely learn more about this in coming years. In the next 2 
decades, scores of convicted and incarcerated home-grown 
violent jihadists are to be released from U.S. prisons, 
potentially making this issue especially salient.
    Until recently, relatively few home-grown jihadists have 
been released from U.S. correctional facilities, offering us 
little insight into the effect of prison on such persons. 
Though, of this small pool of released convicts, none has 
returned to terrorist plotting, according to open sources. This 
suggests at least several questions. How successfully will 
convicts due for release after 2015 reintegrate into life 
outside of prison? How might they influence the home-grown 
threat landscape? Will any of these ex-convicts foster new 
plots? Will any serve as role models for future terrorists?
    Based on CRS research, since 9/11 more than 250 people have 
been convicted for their involvement in home-grown violent 
jihadist plots. CRS was able to find information regarding the 
sentences of 151 home-grown violent jihadists. Of the 151, 132 
had identifiable release dates, and just over 100 will be 
released after 2015.
    To summarize, only 1 post-9/11 home-grown jihadist 
terrorist plot has involved people who clearly radicalized 
behind bars. This may imply that jihadist extremism is not a 
problem in U.S. correctional facilities; however, arguably, we 
cannot dismiss this issue.
    We haven't determined the extent of jihadist influence in 
U.S. prisons. We also need to better understand whether 
confinement in U.S. jails fosters deeper commitment to radical 
violence among convicted terrorists. Further work on these 
issues will help us to better understand the security 
challenges that radicalization in U.S. prisons may pose. I 
thank the subcommittee again for this opportunity to testify 
and look forward to your questions.
    [The prepared statement of Mr. Bjelopera follows:]
               Prepared Statement of Jerome P. Bjelopera
                            October 28, 2015
                                overview
    Chairman King, Ranking Member Higgins, and Members of the 
committee, my name is Jerry Bjelopera. Thank you for the opportunity to 
testify today on behalf of the Congressional Research Service. My 
testimony attempts to frame the issue of violent jihadist 
radicalization in U.S. prisons and briefly examines whether Federal 
efforts to counter violent extremism extend to U.S. prisoners.
    Since the attacks of September 11, 2001 (9/11), the vast majority 
of home-grown violent jihadists have not radicalized in U.S. prisons. 
Far more often, the shift from law-abiding citizen to terrorist has 
involved other social environments and contexts--both virtual and real. 
Domestic prisons do not appear to create many violent extremists out of 
non-terrorist criminals, according to open-source information.
    Two important caveats temper this point and suggest that U.S. 
correctional institutions cannot be completely dismissed as potential 
radicalization arenas.
  <bullet> We do not know the actual extent of jihadist influence in 
        U.S. prisons.--No solid estimates exist either of the number of 
        people preaching violent jihadist messages in State and Federal 
        prisons or their followers. Non-jihadist extremist movements 
        such as white supremacy have taken root behind bars, suggesting 
        that it may be possible for violent jihadists to propagate 
        their messages in the same settings.
  <bullet> Whether incarceration in U.S. prisons fosters deeper 
        commitment to radical violence among convicted terrorists 
        remains unclear.\1\--In the next 2 decades, scores of convicted 
        and incarcerated home-grown violent jihadists are to be 
        released from U.S. prisons potentially making this issue 
        especially salient.
---------------------------------------------------------------------------
    \1\ Since 9/11, more than 250 people have been convicted for their 
involvement in home-grown violent jihadist plots.
---------------------------------------------------------------------------
Key Terms
    Radicalization.--The process of acquiring and holding radical, 
extremist, or jihadist beliefs. A radicalized individual becomes a 
terrorist when he or she commits a crime on the basis of such beliefs.
    Home-grown.--Terrorist activity perpetrated within the United 
States or abroad by American citizens, lawful permanent residents, or 
visitors radicalized largely within the United States.
    Violent Jihadists.--Radicalized individuals using Islam as an 
ideological and/or religious justification for their belief in the 
establishment of a caliphate--a jurisdiction governed by a Muslim civil 
and religious leader known as a caliph--via violent means.
    Plots.--Schemes by home-grown individuals or groups to either join 
terrorist organizations abroad or to commit violent attacks at home or 
abroad.
 american prisons have produced almost no post-9/11 jihadist terrorists
    According to CRS analysis of home-grown violent jihadist activity 
since 9/11, such plots have nearly always featured people who 
radicalized outside of prison. Out of approximately 120 conspiracies, 
CRS has found 1 that included participants who had clearly radicalized 
while incarcerated in the United States.
  <bullet> Kevin James, Levar Washington, Gregory Patterson, and Hammad 
        Samana were arrested in August 2005 for plotting to attack 
        targets in the Los Angeles, CA area, including synagogues, the 
        Israeli Consulate, Los Angeles International Airport (LAX), 
        U.S. military recruiting offices, and military bases. In 1997, 
        James founded a violent jihadist movement he named Jamiyyat Ul-
        Islam Is-Saheeh (JIS or the ``Authentic Assembly of God'') in 
        the California State prison system. James met Washington behind 
        bars in 2004 and recruited him into JIS. After his release, 
        Washington enlisted Patterson, an employee at LAX, and Samana 
        at the Jamaat-E-Masijudal mosque in Inglewood, CA, where they 
        all worshipped.\2\
---------------------------------------------------------------------------
    \2\ Department of Justice, ``Man Who Formed Terrorist Group that 
Plotted Attacks on Military and Jewish Facilities Sentenced to 16 Years 
in Federal Prison,'' March 6, 2009, http://losangeles.fbi.gov/
dojpressrel/pressrel09/la030609ausa.htm; Department of Justice, ``Man 
Involved in Domestic Terrorism Plot Targeting Military and Jewish 
Facilities Sentenced to 22 Years,'' July 23, 2008, http://
losangeles.fbi.gov/dojpressrel/pressrel08/la062308usa.htm; Department 
of Justice, ``Second Man Involved in Domestic Terrorism Plot Targeting 
Military, Jewish Facilities Sentenced to Prison,'' July 21, 2008, 
http://www.justice.gov/opa/pr/2008/July/08-nsd-634.html; Department of 
Justice, ``Four Men Indicted on Terrorism Charges,'' August 31, 2005, 
http://www.dodig.mil/IGInformation/IGInformationReleases/
fourmen_090105.pdf.
---------------------------------------------------------------------------
    Most home-grown violent jihadists radicalize via virtual or in-
person interactions that can depend on powerful contexts such as real 
or on-line friendship networks and family relationships. These usually 
do not involve the levels of scrutiny or supervision by authority 
figures as do interpersonal dealings in prison.
  <bullet> In 2013 and 2014, Asher Abid Khan conspired with a friend to 
        travel to Syria and join the terrorist organization known as 
        the Islamic State (IS).\3\ Khan, a 20-year-old Houston, TX 
        resident, and his friend radicalized together. For example, 
        they watched violent jihadist videos on-line. The duo exchanged 
        IS-inspired messages and imagery via social media platforms 
        such as Facebook and Instagram. They also used Facebook to 
        contact an IS foreign terrorist fighter facilitator based in 
        Turkey. Khan's friend eventually made it to Syria and joined 
        the Islamic State.\4\
---------------------------------------------------------------------------
    \3\ The group has also been known as the Islamic State of Iraq and 
the Levant (ISIL) Islamic State of Iraq and Syria (ISIS), the Islamic 
State of Iraq and al Sham (ISIS), and Daesh among other names.
    \4\ Adam Goldman, ``An American Family Saved Their Son from Joining 
the Islamic State. Now He Might Go to Prison,'' Washington Post, 
September 6, 2015, https://www.washingtonpost.com/world/national-
security/an-american-family-saved-their-son-from-joining-the-islamic-
state-now-he-might-go-to-prison/2015/09/06/2d3d0f48-44ef-11e5-8ab4-
c73967a143d3_story.html; United States v. Asher Abid Khan, Criminal 
Complaint, United States District Court for the Southern District of 
Texas, May 25, 2015.
---------------------------------------------------------------------------
  <bullet> In 2014, Heather Elizabeth Coffman, a 29-year-old Glen 
        Allen, VA resident, attempted to assist others to join the 
        Islamic State. Coffman relied on Facebook postings as she 
        radicalized and attempted to help a man she described as her 
        husband travel to Syria to link up with the terrorist group.\5\
---------------------------------------------------------------------------
    \5\ Department of Justice Press Release, ``Glen Allen Woman Pleads 
Guilty to Making a False Statement Involving International Terrorism,'' 
February 2, 2015; Danielle Haynes, ``Virginia Woman Arrested for 
Allegedly Offering to Help Islamic State,'' United Press International, 
November 17, 2014. United States v. Heather Elizabeth Coffman, Criminal 
Complaint, United States District Court for the Eastern District of 
Virginia, November 14, 2014.
---------------------------------------------------------------------------
             yet, concerns about jailhouse jihadism persist
    The extent of violent jihadist radicalization behind bars is 
unknown. American prisons might offer venues for such activity, where 
neophytes can be radicalized or recruited, even though only a small 
percentage of such individuals may eventually turn to terrorism.\6\ 
Also, we do not fully understand the effect of prison time on convicted 
terrorists who came to prison already radicalized.
---------------------------------------------------------------------------
    \6\ See Mark S. Hamm, The Spectacular Few: Prisoner Radicalization 
and the Evolving Terrorist Threat (New York: New York University Press, 
2013), Hereafter: Hamm, The Spectacular Few. See also Mark S. Hamm, 
``Terrorist Recruitment in American Correctional Institutions: An 
Exploratory Study of Non-Traditional Faith Groups,'' December 2007, p. 
112, http://www.ncjrs.gov/pdffiles1/nij/grants/220957.pdf. Hereafter: 
Hamm, ``Terrorist Recruitment.'' See also ``U.S. Congress, House 
Homeland Security Committee, Subcommittee on Intelligence, Information 
Sharing, and Terrorism Risk Assessment, Written Statement of Janice 
Fedarcyk, fmr. Special Agent in Charge, Counterterrorism Division, Los 
Angeles Field Office, Federal Bureau of Investigation, `Radicalization, 
Information Sharing, and Community Outreach: Protecting the Homeland 
from Homegrown Terror,' '' 110th Cong., 1st sess., April 5, 2007, p. 
18; George Washington University Homeland Security Policy Institute 
(HSPI) and The University of Virginia Critical Incident Analysis Group 
(CIAG), ``Out of the Shadows: Getting Ahead of Prisoner 
Radicalization,'' HSPI and CIAG, Washington, DC, September 2006, http:/
/www.healthsystem.virginia.edu/internet/ciag/publications/
out_of_the_shadows.pdf.
---------------------------------------------------------------------------
    In its many peaceful mainstream forms, Islam is the fastest-growing 
faith behind bars in the United States. However, some disaffected 
prisoners adopt versions of the religion that stray far from broadly-
accepted sects and schools of thought, versions that may incorporate 
radical viewpoints and violent rhetoric. One such non-traditional 
jailhouse variant is commonly known as ``prison Islam.'' Prison Islam 
selectively uses the Quran and other Islamic texts in a ``cut-and-
paste'' ideological approach to reinforce gang values and may encourage 
violence.\7\
---------------------------------------------------------------------------
    \7\ Hamm, The Spectacular Few; Peter R. Neumann, Prisons and 
Terrorism: Radicalisation and De-radicalisation in 15 Countries, 
International Centre for the Study of Radicalisation and Political 
Violence, London, 2010, p. 2, http://www.icsr.info/publications/papers/
1277699166PrisonsandTerrorismRadicalisationandDeradicalisationin15Countr
ies.pdf. Greg Hannah, Lindsay Clutterbuck, and Jennifer Rubin, 
Radicalization or Rehabilitation: Understanding the Challenges of 
Extremist and Radicalized Prisoners, RAND Europe, Cambridge, United 
Kingdom, 2008, p. 10, http://www.rand.org/pubs/technical_reports/2008/
RAND_TR571.pdf.
---------------------------------------------------------------------------
Islam and Conversion Behind Bars
    Islam has been described as the fastest-growing religion among 
North American prisoners, with one estimate suggesting that ``30,000 or 
perhaps as many as 40,000'' prisoners convert every year.\8\ Prison 
converts do not necessarily adopt the tenets of mainstream major 
religions. Some consider non-traditional, potentially radical, quasi-
religious outlooks instead. At least two broad motivations influence 
potential converts--a search for meaning/identity (which can translate 
into defiance of prison authorities) and a need for physical protection 
from other inmates. Religious conversion plays a varied part in prison 
life. Cynical prisoners may use conversion to demonstrate good behavior 
to prison officials, thereby potentially improving their conditions. 
For others, religious conversion can offer a powerful alternative to 
harmful or destructive behavior behind bars and may reduce the 
likelihood that they will commit future offenses in jail or once 
released.\9\
---------------------------------------------------------------------------
    \8\ Hamm, The Spectacular Few, pp. 43-44. According to one study, 
just State and Federal institutions held ``an estimated 1,574,700 
prisoners on December 31, 2013, an increase of 4,300 prisoners from 
year-end 2012.'' This figure peaked in 2009 at 1,615,500. When 
factoring in local jails as well, the number of inmates for 2012 was 
2,231,400 and 2,220,300 for 2013. See E. Ann Carson, ``Prisoners in 
2013,'' U.S. Department of Justice, Office of Justice Programs, Bureau 
of Justice Statistics, (September 30, 2014); Lauren E. Glaze and 
Danielle Kaeble, U.S. Department of Justice, Office of Justice 
Programs, Bureau of Justice Statistics, ``Correctional Populations in 
the United States, 2013'' (December 2014).
    \9\ Hamm, ``Terrorist Recruitment,'' pp. 112, 113.
---------------------------------------------------------------------------
Other Radicals in Prison
    While the scope of jihadist radicalization in U.S. correctional 
facilities is unclear, a number of large gangs in U.S. prisons recruit 
and organize around other extremist ideologies. The existence of such 
gangs suggests that extremist ideologies can find root in American 
prisons. The beliefs that some prison gangs have adopted help them to 
radicalize new members. However, these gangs tend not to use their 
ideological systems to justify terrorist acts. Rather, they focus on 
profitable criminal enterprises such as drug trafficking.\10\ White 
supremacist prison gangs illustrate this.
---------------------------------------------------------------------------
    \10\ Joshua D. Freilich, Steven M. Chermak, and David Caspi, 
``Critical Events in the Life Trajectories of Domestic Extremist White 
Supremacist Groups,'' Criminology and Public Policy, vol. 8, no. 3 
(August 2009), p. 508; David Holthouse, ``Smashing the Shamrock,'' 
Intelligence Report, Southern Poverty Law Center, Issue 119, (Fall 
2005), http://www.splcenter.org/get-informed/intelligence-report/
browse-all-issues/2005/fall/smashing-the-shamrock?page=0,1. Hereafter: 
Holthouse, ``Smashing.'' Camille Jackson, ``Nazi Low Riders,'' 
Intelligence Report, Southern Poverty Law Center, Issue 114, (Summer 
2004), http://www.splcenter.org/get-informed/intelligence-report/
browse-all-issues/2004/summer/nazi-low-riders.
---------------------------------------------------------------------------
    White supremacist beliefs form the key tenets binding several gangs 
in U.S. prisons. Extremists of this persuasion hold that whites: (1) 
Are superior to all other racial groups, (2) have experienced decline 
at the hands of other races, and (3) require extreme measures to return 
them to social and political preeminence.\11\
---------------------------------------------------------------------------
    \11\ Such views are broadly shared by domestic extremist groups 
such as the National Socialist Party and racist skinheads.
---------------------------------------------------------------------------
  <bullet> The Aryan Brotherhood, a National-level prison gang with 
        approximately 15,000 members in and out of custody, has 
        factions within facilities managed by the California Department 
        of Corrections and the Federal Bureau of Prisons.\12\
---------------------------------------------------------------------------
    \12\ Department of Justice, ``Prison Gangs and Photos,'' May 11, 
2015, http://www.justice.gov/criminal-ocgs/gallery/prison-gangs; 
``Member of Aryan Brotherhood Booked in Slidell,'' Associated Press 
State and Local Wire, October 6, 2009; Holthouse, ``Smashing.''
---------------------------------------------------------------------------
  <bullet> The Nazi Low Riders, a regional-level gang with a membership 
        estimated between 800 and 1,000, exists in correctional 
        facilities on the West Coast and in the Southwest.\13\
---------------------------------------------------------------------------
    \13\ Ibid. See also National Drug Intelligence Center. Attorney 
General's Report to Congress on the Growth of Violent Street Gangs in 
Suburban Areas, (April 2008), Appendix B. Pete Simi, Lowell Smith, and 
Ann M.S. Reeser, ``From Punk Kids to Public Enemy Number One,'' Deviant 
Behavior, vol. 29, no. 8 (2008), pp. 753-774.
---------------------------------------------------------------------------
How Have Incarcerated Jihadists Fared in Prison?
    Until recently few home-grown violent jihadists have been released 
from U.S. correctional facilities, offering little insight into the 
effect of prison time on such persons. Though, of this small pool of 
released convicts, none have returned to terrorist plotting, according 
to open sources. In the next 20 years, the United States is to release 
scores of similar individuals. It is unknown how such people will 
handle their exits from penal institutions. How successfully they 
reintegrate into life outside of prison might influence the home-grown 
violent jihadist threat landscape. Will a significant portion of these 
released jihadists foster new plots? Will any serve as role models for 
future terrorists? Since 9/11, more than 250 people have been convicted 
for their involvement in home-grown violent jihadist plots. Approximate 
release dates for 132 people imprisoned for such activity are publicly 
available and depicted in Figure 1 below. CRS was able to find 
information regarding the sentences of 151 home-grown violent jihadists 
arrested for either their involvement in terrorist attacks for plotting 
such attacks. Of the 151 home-grown violent jihadists:
  <bullet> 132 had identifiable release dates. (The earliest possible 
        release date was considered, where appropriate.)
  <bullet> Of the 132 with identifiable release dates, 5 were 
        incarcerated at the State level. The rest (127) were held in 
        Federal (non-military) correctional facilities.
  <bullet> 16 received life sentences.
  <bullet> 3 received death sentences. Two of these individuals were 
        tried as U.S. soldiers in military courts and await their 
        executions in military custody.
  <bullet> 11 are housed in the U.S. Bureau of Prisons Administrative 
        Maximum Security (ADX) facility, in Florence, CO. Commonly 
        referred to as ADX Florence, Florence ADMAX, or the Alcatraz of 
        the Rockies, this prison is reputedly the most secure prison 
        facility in the United States.\14\
---------------------------------------------------------------------------
    \14\ For example, see Mark Binelli, ``Inside America's Toughest 
Federal Prison,'' New York Times Magazine, March 26, 2015. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 to what degree do federal efforts to counter violent extremism extend 
                           to u.s. prisoners?
    Based on public sources, it is difficult to determine how much of 
the Obama administration's program to thwart terrorist radicalization 
focuses on Federal, State, or local prisons.\15\ The plan, dubbed 
``countering violent extremism'' (CVE), was announced in 2011. When 
describing existing CVE efforts in 2011, the administration noted that 
the Department of Homeland Security (DHS), the Federal Bureau of 
Investigation (FBI), the Bureau of Prisons (BOP), and the National 
Counterterrorism Center (NCTC) had collaborated to evaluate how State-
level prisons identified radicalization among inmates and shared such 
information with law enforcement partners.\16\ The administration's 
program for further work on CVE included almost 50 ``future activities 
and efforts'' for numerous Federal agencies.\17\ One of these focused 
on prison radicalization, suggesting that DHS, FBI, BOP, and NCTC 
continue existing collaboration to:
---------------------------------------------------------------------------
    \15\ Empowering Local Partners to Prevent Violent Extremism in the 
United States, August 2011, p. 1. Hereinafter: Empowering Local 
Partners.
    \16\ Strategic Implementation Plan for Empowering Local Partners to 
Prevent Violent Extremism in the United States, December 2011, p. 13.
    \17\ Ibid.
---------------------------------------------------------------------------
  <bullet> Improve awareness of the risk of violent extremism in 
        correctional systems;
  <bullet> Enhance screening of new inmates to detect individuals 
        associated with violent extremist organizations;
  <bullet> Improve detection of recruitment efforts within the 
        correctional environment; and
  <bullet> Increase information sharing, as appropriate, with Federal, 
        State, and local law enforcement about inmates who may have 
        adopted violent extremist beliefs and are being released.\18\
---------------------------------------------------------------------------
    \18\ Ibid., p. 14.
---------------------------------------------------------------------------
    It is unclear what progress has been made in these efforts.
    I thank the subcommittee again for this opportunity to testify and 
look forward to your questions.

    Mr. King. Thank you, Mr. Bjelopera, for your testimony.
    Our next witness, Mr. Tony Parker, is the assistant 
commissioner of prisons with the Tennessee Department of 
Corrections. Commissioner Parker has a 32-year record in the 
corrections field, and is currently responsible for overseeing 
the day-to-day operations of the correctional institutions in 
Tennessee.
    In addition, in 2013, Commissioner Parker completed the 
Naval post-graduate school in Monterey, California, and wrote a 
thesis entitled, ``Establishing a Deradicalization/
Disengagement Model for America's Correctional Facilities: 
Recommendations for Countering Prison Radicalization.'' Now, 
the staff was not able to come up with simultaneous translators 
for today, so Mr. Parker and I have agreed not to comment on 
each other's accents and try to understand our dialects as 
closely as possible. Thank you, Commissioner. You're 
recognized.

STATEMENT OF TONY C. PARKER, ASSISTANT COMMISSIONER, DEPARTMENT 
               OF CORRECTION, STATE OF TENNESSEE

    Mr. Parker. Thank you, Chairman. Chairman King, Ranking 
Members Thompson and Higgins, and Members of this subcommittee, 
I would like to thank you for the opportunity to testify before 
you today.
    I would also like to express my appreciation to the men and 
women who work inside America's jails and prisons. It is truly 
an honor to testify at this hearing and to share my experiences 
about the correctional environment as well as my prison 
radicalization research.
    My name is Tony Parker, and I serve as the assistant 
commissioner of prisons for the Tennessee Department of 
Correction. Prison radicalization has been identified as a 
significant threat to America's homeland security. Currently, 
the United States has no prison deradicalization program. When 
considering the inmate population within the Federal Bureau of 
Prison who have a terrorism nexus and the fact that 95 percent 
of America's inmate population will return to our communities, 
it is evident we need to do something proactively to address 
prison radicalization.
    In 2011, I had the opportunity to participate in the 
master's degree program at the Naval Postgraduate School, 
Center for Homeland Defense and Security in Monterey, 
California. I would like to thank Congress and FEMA for funding 
a program grounded in providing future homeland security 
leaders with the analytical tools to establish future policy.
    My research examined the literature about environmental 
factors within prisons that promote radicalization. I also 
conducted a comparative analysis of deradicalization programs 
used in Singapore and Saudi Arabia. That research provides the 
basis for my recommendations regarding a U.S. prison 
deradicalization model, a model that addresses both prison 
environmental factors as well as providing recommendations for 
a rehabilitative initiative targeted toward reentry.
    Prison radicalization has left its footprint on society 
through the actions of individuals like Kevin James, Jose 
Padilla, and Michael Finton. The American prison system has 
many of the characteristics that promote radicalization. 
Prisons are isolated environments. In such an environment, 
inmates become easy targets for radical extremists searching 
for individuals to join their cause.
    The most effective correctional system incorporates 
productive rehabilitative programs with sound security 
policies. Corrections' long-term strategy, security, is the 
foundation of sound correctional policy, although that strategy 
may have become a liability. We have failed to recognize the 
need to change the strategy to an approach that includes both 
security and a robust rehabilitative initiative. I would argue 
you cannot have one without the other.
    Effective monitoring and control of prison groups, 
especially security threat groups, are essential to reducing 
the vulnerability of prison radicalization. The radicalization 
message can enter the correctional environment through numerous 
avenues such as radicalized inmates, unvetted radical 
chaplains, extremist propaganda labeled as religious material, 
illegal cell phones, and social media sites. Rigorous vetting 
and monitoring of prison chaplains and religious volunteers 
must be a standard.
    Understanding the complexities of a captive society like 
prison populations is complicated. My 32 years of correctional 
experience has helped me recognize how fragile this environment 
can be, but additional social science research would be 
beneficial in expanding the knowledge base regarding prison 
radicalization. Providing adequate staff training and 
developing intelligence-sharing networks with criminal justice 
partners are critical in fighting prison radicalization.
    The correctional intelligence initiative developed by the 
Federal Bureau of Investigation and the National Joint 
Terrorism Task Force provides a good framework that promotes 
intelligence gathering related to terrorism and prison 
radicalization from United States correctional agencies. I 
argue that although the framework is structurally sound, there 
remains a significant training element that must be 
accomplished.
    The prison deradicalization programs of Singapore and Saudi 
Arabia were based on the applicable laws and cultural 
considerations of both countries. I recognize the profound 
differences in both of these countries, especially when 
compared to our Nation's civil liberties and due process 
protections. Even so, the value of learning from successful 
deradicalization programs of other countries should not be 
minimized.
    Although the deradicalization programs of Singapore and 
Saudi Arabia were designed to counter radicalization within 
their respective borders, unique elements of these programs 
offer possible solutions to prison radicalization in the United 
States that should be evaluated through a filter that maintains 
the Constitutional protections afforded to U.S. prisoners.
    The 9/11 Commission report identified failure of 
imagination as America's most glaring failure leading to the 
attacks of September 11. According to the report, we failed to 
understand and consider the gravity of the threat. May we never 
underestimate the threat of prison radicalization and the 
importance of reentry protocols for the convicted terrorist.
    Without a multi-disciplinary approach that targets prison 
radicalization and understands the reentry issues that surround 
the inmates with a terrorism nexus, America will always be 
reacting to prison radicalization. Our policy and our strategy 
must be proactive. Correctional policymakers must be cognizant 
of the environmental factors that promote prison radicalization 
and promote policy to mitigate the threat. Failing to provide 
aggressive treatment and program options to counter prison 
radicalization leads to the prison gates open to releasing 
potentially radicalized individuals back into our communities.
    I would ask the subcommittee to support this model and 
support additional social science research designed to mitigate 
the factors of contributing to prison radicalization. Again, I 
thank you for allowing me to address this distinguished 
committee.
    [The prepared statement of Mr. Parker follows:]
                  Prepared Statement of Tony C. Parker
                            October 28, 2015
    Chairman King, Ranking Members Thompson and Higgins, and Members of 
this subcommittee, I would like to thank you for the opportunity to 
testify before you today. I would also like to express my appreciation 
to the men and women who work inside America's jails and prisons. It is 
truly an honor to testify at this hearing and share my experiences 
about the correctional environment as well as my prison radicalization 
research.
    My name is Tony Parker and I serve as the assistant commissioner of 
prisons for the Tennessee Department of Corrections (TDOC).
    Prison radicalization has been identified as a significant threat 
to America's homeland security. Currently, the United States has no 
prison deradicalization program. When considering the inmate population 
housed within the Federal Bureau of Prisons who have a terrorism nexus, 
and the fact that 95 percent of America's inmate population will return 
to our communities, it is evident we need to do something proactively 
to address prison radicalization.
    In 2011, I had the opportunity to participate in a Master's Degree 
Program at the Naval Postgraduate School--Center for Homeland Defense 
and Security in Monterey, California. I would like to thank Congress 
and FEMA for funding a program grounded in providing future homeland 
security leaders with the analytical tools to establish future policy.
    My research examined the literature about environmental factors 
within prisons that promote radicalization. I also conducted a 
comparative analysis of deradicalization programs used in Singapore and 
Saudi Arabia. That research provides the basis for my recommendations 
about a U.S. prison deradicalization model. A model that addresses both 
prison environmental factors as well as providing recommendations for a 
rehabilitative initiative targeted toward reentry.
    Prison radicalization has left its footprint on society through the 
actions of individuals like Kevin James, Jose Padilla, and Michael 
Finton.\1\ The American prison system has many of the characteristics 
that promote radicalization. Prisons are isolated environments. In such 
an environment, inmates become easy targets for radical extremists 
searching for individuals to join their cause.
---------------------------------------------------------------------------
    \1\ House Committee on Homeland Security, Background Information on 
Prominent Post-9/11 U.S. Prison Radicalization Cases (Washington, DC: 
Committee on Oversight and Government Affairs, 2011).
---------------------------------------------------------------------------
    The most effective correctional system incorporates productive 
rehabilitative programs with sound security policies. Correction's 
long-term strategy--security--is the foundation of sound correctional 
policy, although; that strategy may have become a ``liability.'' We 
have failed to recognize the need to change the strategy to an approach 
that includes both security and a robust rehabilitative initiative. You 
cannot have one without the other.
    Effective monitoring and control of prison groups, especially 
security threat groups, are essential to reducing the vulnerability for 
prison radicalization.
    The radicalization message can enter the correctional environment 
through numerous avenues such as radicalized inmates, unvetted radical 
chaplains, extremist propaganda labeled as religious material, illegal 
cell phones, and social media sites. Rigorous vetting and monitoring of 
prison chaplains and religious volunteers must be a standard.
    Understanding the complexities of a captive society like prison 
populations is complicated. My 32 years of correctional experience have 
helped me recognize how fragile this environment can be, but additional 
social science research would be beneficial in expanding the knowledge 
base regarding prison radicalization.
    Providing adequate staff training and developing intelligence-
sharing networks with criminal justice partners are critical in 
fighting prison radicalization. The Correctional Intelligence 
Initiative, developed by the Federal Bureau of Investigation (FBI) and 
the National Joint Terrorism Task Force (NJTTF), provides a good 
framework that promotes intelligence gathering, related to terrorism 
and prisoner radicalization, from United States correctional agencies. 
I argue that although the framework is structurally sound, there 
remains a significant training element that must be accomplished.
    The prison deradicalization programs of Singapore and Saudi Arabia 
were based on the applicable laws and cultural considerations of both 
countries. I recognize the profound differences of both of those 
countries, especially when compared to our Nation's civil liberties and 
due process protections.
    Even so, the value of learning from the successful deradicalization 
programs of other countries should not be minimized. Although the 
deradicalization programs of Singapore and Saudi Arabia were designed 
to counter radicalization within their respective borders, unique 
elements of these programs offer possible solutions to prison 
radicalization in the United States that should be evaluated through a 
filter that maintains the constitutional protections afforded to U.S. 
prisoners.
    The 9/11 Commission Report identified ``Failure of Imagination'' as 
America's most glaring failure leading to the attacks of September 11. 
According to the Report, we failed to understand and consider the 
gravity of the threat. May we never underestimate the threat of prison 
radicalization and the importance of reentry protocols for convicted 
terrorist.
    Without a multidisciplinary approach that targets prison 
radicalization and understands the reentry issues that surround the 
inmate with a terrorism nexus, America will always be reacting to 
prison radicalization. Our policy and our strategy must be proactive. 
Correctional policymakers must be cognizant of the environmental 
factors that promote prison radicalization and promote policy to 
mitigate the threat. Failing to provide aggressive treatment and 
program options to counteract prison radicalization leaves the prison 
gates open to releasing potentially radicalized individuals back into 
our neighborhoods.
    I would ask the subcommittee to support this model and support 
additional social science research designed to mitigate the factors 
contributing to prison radicalization.
    Again, I thank you for allowing me to address this distinguished 
committee.
 Attachment.--Establishing a Deradicalization/Disengagement Model for 
   America's Correctional Facilities: Recommendations for Countering 
                         Prison Radicalization

        RECOMMENDATIONS FOR A U.S. PRISON DERADICALIZATION MODEL
------------------------------------------------------------------------
  Suggested Proactive Measures for the     Suggested Proactive Measures
   Correctional Environment Aimed at         That Provide Individual
  Reducing the Vulnerability of Prison      Treatment Options for the
             Radicalization                     Radicalized Inmate
------------------------------------------------------------------------
1. Productive Rehabilitation and         1. The establishment of a
 Effective Security: The Dual Strategy    voluntary cognitive-based
 (effective rehabilitation enhances       counseling program for inmates
 security).                               who are incarcerated for
                                          terrorism-related crimes or
                                          inmates who exhibit violent
                                          ideological expressions.
2. Effective Monitoring and Control of   2. Inmates who participate in
 Prison Groups.                           voluntary deradicalization
                                          programs should be afforded
                                          the same incentives related to
                                          sentence credit reductions,\1\
                                          vocational/educational
                                          opportunities as well as
                                          aftercare programs that
                                          support their chances for
                                          successful reentry and reduce
                                          the chances of further
                                          extremist activity.
3. Rigorous Vetting and Monitoring of    3. U.S. Corrections should
 Prison Chaplains and Religious           invest in an intensive effort
 Volunteers.                              to recruit properly-vetted and
                                          trained volunteers, chaplains,
                                          and psychological
                                          professionals that would be
                                          utilized in an established
                                          counseling program as
                                          recommended in recommendation
                                          1.
4. Encourage Positive Inmate/Family      4. Develop and implement a
 Social Interaction and Communication.    vigorous aftercare initiative
                                          that ensures post-
                                          incarceration monitoring/
                                          supervision, counseling and
                                          social service assistance upon
                                          successful completion of the
                                          deradicalization program.
5. Correctional Policy Should Encourage  ...............................
 Social Research Within Prisons.
6. Provide Adequate Staff Training and   ...............................
 Develop Intelligence-Sharing Networks.
------------------------------------------------------------------------
\1\ Sentence credit reductions would be considered the reduction of days
  from the offender's total sentence for satisfactorily participating in
  a program or job as well as the reduction of days from the sentence
  for good behavior.


    Mr. King. Thank you, Commissioner Parker.
    Our next witness, Mr. Brian Levin, is a professor within 
the Department of Criminal Justice and the director of the 
Center for the Study of Hate & Extremism at California State 
University in San Bernardino. Professor Levin is the author, 
coauthor, and editor of a number of books, articles, and 
studies on extremism and hate crime. He has testified 
previously before Congress and has appeared on multiple 
National news outlets.
    Prior to joining academia, Professor Levin earned a law 
degree from Stanford, and I must say I am particularly proud of 
the fact that you served as a New York City police officer and 
is then third generation NYPD.
    So thank you for your service and thank you for your 
testimony today, Professor. I just wish you were back on Long 
island. That is all. Thank you.

STATEMENT OF BRIAN H. LEVIN, PROFESSOR, DEPARTMENT OF CRIMINAL 
JUSTICE, AND DIRECTOR, CENTER FOR STUDY OF HATE AND EXTREMISM, 
          CALIFORNIA STATE UNIVERSITY, SAN BERNARDINO

    Mr. Levin. Good morning, Chairman King. Mets in 6. Ranking 
Member----
    Mr. King. We can end the hearing right there. I am with 
you. Here we go.
    Mr. Levin. The last time I went to a World Series was 1986. 
Good morning, Chairman King, Ranking Members Thompson and 
Higgins, and Members of the committee. Thank you so very much 
for the privilege of speaking before you, and my son Gabriel, a 
Boy Scout, today, on behalf of the nonpartisan Center for the 
Study of Hate & Extremism at California State University, San 
Bernardino.
    My name is Professor Brian Levin, and for over 15 years I 
have served as director of our center where, as you have heard, 
I teach in the criminal justice department and in our 
interdisciplinary National security studies program. I also 
write front-page analysis in National security for the 
Huffington Post, including today, and like you, I am very proud 
to be part of an NYPD family--in my case, three generations. I 
think that is what I am most honored to be associated with.
    My testimony today, however, will address three basic 
subjects. First, I will address the overall homeland terrorist 
threat, with particular emphasis on the two most prominent ones 
coming from violent Salafist jihadists and far-right-wing 
extremists. Second, I will discuss issues relating to these 
movements in the context of prisons and post-release 
activities. Lastly, I will address issues relating to 
countering violent extremism, CVE, programs in the contents of 
efficacy, as well as civil rights and civil liberties concerns.
    The United States faces multiple severe risk factors and a 
diverse set of emerging contemporary actors in the area of mass 
terrorism, with shots on goal increasingly coming from across 
both the idealogical and competency spectrum. According to the 
global terrorism database, GTD, at the University of Maryland's 
START program, total terror attacks in the United States have 
increased from 9 in 2011 to 19 in 2014, and from no fatalities 
in 2011, to 18 last year.
    The GTD data indicates that since 9/11, at least 66 attacks 
came from right-wing extremists versus about 25 from Muslim 
ones. The next deadly mass attack, assassination, or crippling 
infrastructure sabotage may not necessarily come from extremist 
movements that have had more terrorist attacks or plots before, 
or even more or better-trained adherence. Rather, the next 
terrorist attack will simply come from whoever is proximate, 
operational, and undetected tomorrow, and we cannot 
mechanistically presume from the totality of these threats, 
solely revolve around any single movement alone, including the 
two most prominent ones, violent Salafist jihadists and far-
right extremists.
    In today's splintered socio-political landscape, 
increasingly sophisticated organized groups also share the 
stage with angry, unstable, or disenchanted loners along with 
smaller informal groups. My counsel to the House Judiciary 
Committee almost 20 years ago is even more valid today. 
Leaderless resistance calls for small autonomous bands of 
terrorists to further the overall goals of their movement by 
committing random acts of terror against public institutions, 
infrastructure targets, and innocent citizens will continue.
    While there are significant qualitative and quantitative 
factors that plausibly skew our center's current overall mass 
terror threat assessment toward violent Salafist Jihadists, 
available data does not yet indicate that their potency outside 
of prisons has sparked significant internal activity or wave of 
recidivism. While there have been two known Salafist jihadist 
prison-related plots at different ends of the operational 
landscape over the last decade and some really disturbing 
incidents involving bigoted literature and poorly-vetted 
clerics, far-right extremists, often operating as criminal 
syndicates, along with other ethnic-based prison gangs have 
been far more prominent and violent within correctional 
settings.
    While violent Salafist jihadists have achieved extensive 
notoriety over recent years, they are but a tiny sliver of the 
estimated 2.7 million law-abiding American Muslims. Recent 
statements by FBI officials tentatively suggest violent 
Salafist jihadists are possibly plateauing at the top of an 
evolving terrorism threat matrix, with 900 open investigations, 
and 6 foreign-fighter Middle East forays a month, down from a 
previous sustained level of 9 monthly departures.
    The catalytic civil wars in Syria and Iraq, a well-
organized overseas ISIS presence, and the most sophisticated 
use of the internet ever for terrorist recruitment and training 
is indeed the most profound, though hardly the only, threat to 
our National security.
    One of the things that we are seeing is that context is 
critical. With respect to prison and post-release issues, we 
may very well be in the eye of a small incarceration storm with 
only about 200 internal security and terrorism Federal 
prosecutions last year, compared to over 1,200 in 2002. The 
2014 figures show a one-third decline in cases from 5 years ago 
and a 75 percent decline from the previous 10 years, according 
to the Syracuse University-based Transactional Record Access 
Clearinghouse.
    As Mr. Bjelopera points out, many of those convicted during 
the height of the Federal prosecution efforts over the last 
decade have been or will be released soon, while new offenders 
may be ensnared in the foreseeable future, as Federal 
authorities ramp up counterterrorism investigations related to 
recruitment efforts of ISIS and related entities. These 
numbers, however, represent a mere fraction of the 1.5 million 
prisoners incarcerated Nationally and of the 211,000 
incarcerated in the Federal system.
    Just because my time is running over, I am just going to 
close with a couple of observations. Far-right-wing extremists, 
for instance, groups like Aryan Brotherhood, 15,000 to 20,000; 
Nazi Low Riders, maybe 1,000 or so; Public Enemy Number 1, 800 
to 1,200, these are all significant prison presence relating to 
radicalism on another end of the spectrum. They, however, often 
operate as criminal syndicates.
    Interestingly enough, the first post-9/11 operational 
jihadist Salafist plot came from a prison. So simply, while we 
have not seen prisons be a fertile breeding ground yet, that 
does not mean in the future that won't change because we are in 
a very fluid environment, and I would be more than happy to 
answer questions related to that in the Q and A section. 
However, what I must say, though, we must be very careful with 
respect to civil rights and civil liberties concerns.
    As the Supreme Court has stated, the Constitution does not 
stop at prison walls. While we very well may have to engage in 
a variety of rehabilitative and monitoring programs, it is 
crucial that they apply across the board to the vast threat 
because we don't want to focus just on one section of the ice, 
when the shot on goal tomorrow might come from another. I again 
want to thank you so much for the privilege of testifying here 
before you and am honored to do so.
    Let me just say, I am so moved by the bipartisanship that 
your committee has shown, and I think the words of Senator 
Robert Kennedy speak well here. ``Let us work together towards 
this noble effort against terrorism to dedicate ourselves to 
what the Greeks wrote so many years ago, `to tame the savages 
of man and make gentle the life of this world.' Let us dedicate 
ourselves to that and say a prayer for our country and for our 
people,'' and if I may, for this wonderful committee. Thank you 
so much for inviting me today.
    [The prepared statement of Mr. Levin follows:]
                  Prepared Statement of Brian H. Levin
                            October 28, 2015
                              introduction
    Good morning Chairman King, Ranking Members Thompson and Higgins, 
and Members of the committee. Thank you so very much for the privilege 
of speaking before you, and my son Gabriel, today on behalf of the 
nonpartisan Center for the Study of Hate and Extremism, at California 
State University, San Bernardino.
    My name is Professor Brian Levin and for over 15 years I have 
served as director of our Center at the University, where I teach in 
the Department of Criminal Justice, and in our interdisciplinary 
National Security Studies Program. I also write front-page analysis on 
National security for the Huffington Post, and am 1 of 3 generations of 
officers in my family who have had the honor of serving in the NYPD. I 
am also a graduate of Stanford Law School, where I was co-recipient of 
the Block Civil Liberties Award, and of the University of Pennsylvania.
    My testimony today will address 3 basic subjects. First, I will 
address the overall homeland terrorist threat, with particular emphasis 
on the 2 most prominent ones coming from violent Salafist Jihadists and 
far-right-wing extremists. Second, I will discuss issues relating to 
these movements in the context of prisons and post-release activities. 
Lastly, I will address issues relating to Countering Violent Extremism 
(CVE) programs in both the context of efficacy, as well as civil rights 
and civil liberties concerns.
        the contemporary terror threat to the american homeland
    The United States faces multiple severe risk factors and a diverse 
set of emerging contemporary actors in the area of mass terrorism with 
shots on goal increasingly coming from across both the ideological and 
competency spectrum. According to the Global Terrorism Database (GTD) 
at the University of Maryland's START Program, total terror attacks in 
the United States have increased from 9 in 2011 to 19 in 2014, and from 
no fatalities in 2011, to 18 last year. The GTD data indicated that 
since 9/11 at least 66 attacks came from right-wing extremists, versus 
about 25 from Muslim ones. Other estimates put the number of home-grown 
Islamic plots far higher from 63 to 188 according to one of our 
Criminal Justice Masters' recipients, Cynthia Quintero.
    The next deadly mass attack, assassination, or crippling 
infrastructure sabotage may not necessarily come from extremist 
movements that have had more terrorist attacks or plots before, or even 
more or better-trained adherents. Rather, the next terrorist attack 
will simply come from whoever is proximate, operational, and undetected 
tomorrow, and we can not mechanistically presume that the totality of 
these threats solely revolve around any single movement alone, 
including the two most prominent ones: Violent Salafist Jihadists and 
far-right-wing extremists. In today's splintered socio-political 
landscape, increasingly sophisticated organized groups also share the 
stage with angry, unstable, or disenchanted loners; and with smaller 
informal groups. These latter actors may sculpt idiosyncratic hatreds 
on-line, become operational, and even recruit with little external 
backing. My counsel to the House Judiciary Committee almost exactly 20 
years ago is even more valid today:

``Leaderless resistance calls for small autonomous bands of terrorists 
to further the overall goals of the movement by committing random acts 
of terror against public institutions, infrastructure targets, and 
innocent citizens. Information on how to commit such violence is widely 
available, and an underground market for the tools of destruction 
exists.''

    Former FBI supervisor, Dr. Carl Jensen III, writing in this month's 
American Behavioral Scientist, that I co-edited, forecasts that over 
the next 5 years terrorists will make increasing use of technology, 
forge new alliances and hybrid structures, and morph between politics, 
criminal enterprises, and even gangs.
           diverging assessments of the overall terror threat
    While there are significant qualitative and quantitative factors 
that plausibly skew our Center's current overall mass terror threat 
assessment toward violent Salafist Jihadists, available data does not 
yet indicate that their potency outside of prisons has sparked 
significant internal activity or a wave of recidivism. While there have 
been 2 known Salafist Jihadist prison-related plots at differing ends 
of the operational landscape over the last decade, and some really 
disturbing incidents involving bigoted literature and poorly-vetted 
clerics, far-right extremists, often operating as criminal syndicates, 
along with other ethnic-based prison gangs have been far more prominent 
and violent within correctional settings.
    While violent Salafist Jihadists have achieved extensive notoriety 
over recent years, they are but a tiny sliver of the estimated 2.7 
million law-abiding American Muslims. Recent statements by FBI 
officials tentatively suggest violent Salafist Jihadists are possibly 
plateauing at the top of an evolving contemporary terrorism threat 
matrix, with 900 open investigations and 6 foreign fighter Middle East 
forays a month, down from a previous sustained level of 9 monthly 
departures. The catalytic civil wars in Syria and Iraq, a well-
organized overseas ISIS presence, and the most sophisticated use of the 
internet ever for terrorist recruitment and training, is indeed the 
most profound, though hardly the only, threat to our National security.
    Moreover, while our Center's threat assessment currently leans 
somewhat more towards violent Salafist Jihadist extremists due to ISIS, 
al-Qaeda, al-Shaabab and others, it is a close call. For instance, in 
the post-9/11 era 48 Americans have been killed in far-right-wing 
attacks, compared to 31 fatalities in Salafist Jihadist incidents. 
However, when all casualties, included the wounded are factored in, it 
is the Salafists who become more prominent. Although the Boston 
Marathon bombing killed only 3 civilians, it injured 264 others, with 
well over 1 dozen amputees. The subsequent lock-down of Boston and 
surrounding areas during the manhunt for the suspects also had 
significant economic costs to the region, not to mention the fear from 
the assailants being on the loose. Either of these metrics would have 
skewed substantially more toward radical Salafist Jihadists. A recent 
study by the Anti-Defamation League's Dr. Mark Pitcavage, also in this 
month's American Behavioral Scientist, however, shows that lone attacks 
by active shooters appear more prevalent among right-wing extremists. 
Moreover, a 2014 law enforcement agency survey, by the Police Executive 
Research Forum found that 74% regarded anti-Government extremism as 
being among the top threats, while only 39% listed extremist Muslim 
organizations, but the survey was concluded before ISIS ramped up 
external recruitment operations. Today's threat scenario is fluid not 
only by the background of would-be actors, but also by the breadth of 
attack types, and the potential casualties are wide-ranging too, from 
moderate to devastatingly severe.
                      prison extremist risks vary
    CVE programs, particularly those in the correctional and post-
release settings, must be flexible and responsive not only to the 
diversity of extremist adherents by ideology, but to the civil rights 
and civil liberties issues that these responses necessarily impact. 
Context is critical. With respect to prison and post-release issues, we 
may very well be in the eye of a small incarceration storm with only 
about 200 Internal Security and Terrorism Federal prosecutions last 
year, compared to over 1,200 in 2002. The 2014 figures show a one-third 
decline in cases from 5 years ago and a 75% decline from the previous 
10 years, according to the Syracuse University-based Transactional 
Record Access Clearinghouse.
    As Mr. Bjelopera points out, many of those convicted during the 
height of Federal prosecution efforts over the last decade have been or 
will be released soon, while new offenders may be ensnared in the 
foreseeable future as Federal authorities ramp up counter-terrorism 
investigations related to the recruitment efforts of ISIS and related 
entities. These numbers however, represent a mere fraction of the 1.5 
million prisoners incarcerated nationally, and of the 211,000 
incarcerated in the Federal system, which accounts for 13% of all 
prisoners Nationally, according to the Bureau of Justice Statistics.
    Moreover, researchers urge prudence in our analysis. As Dr. Mark 
Hamm noted in a National Institute of Justice Study entitled Prisoner 
Radicalization: Assessing the Threat in U.S. Correctional Institutions:

``[E]xtensive literature review revealed that moving from 
radicalization to actual recruitment for terrorism is a rare event. 
Only a small percentage of converts to white supremacy groups and to 
Islam--primarily, fresh converts, the newly pious, with an abundance of 
emotion and feeling--turn radical beliefs into terrorist action. 
Therefore, it seems reasonable to conclude that it is not the sheer 
number of prisoners following extremist interpretations of religious 
doctrines that poses a threat; rather, it is the potential for small 
groups of radicals to form support networks for terrorist goals upon 
release.''
                  the jis case: outlier or bellwether?
    Fortunately, to the present time violent activity exhibited by 
these extremists in the prison and post-release context has been 
significantly less pronounced than in other contexts, with only 1 
identifiable independently operational prison-related terror plot in 
2005 in Southern California, out of well over 120 post-9/11 cases 
involving violent Salafist Jihadists. The Jam'iyyat Ul-Islam Is-Saheeh, 
or JIS, terror plot, however, was the first operational home-grown 
Salafist Jihadist plot in the post-
9/11 era.
    The JIS cell and plot formed inside a California State Prison from 
a small group founded in 1997 by convict Kevin James. Torrance, 
California police, aided by a regional law enforcement consortium, 
unraveled a local conspiracy to attack military, Jewish, and Israeli 
targets that was to be financed through a series of armed robberies. 
The plotters included three American-born converts along with a 
Pakistani-born man, and with the exception of extremist literature was 
completely home-grown. Dr. Hamm observed in his NIJ report that, 
``James, however, was the first gang member to radicalize inmates into 
joining a prison gang with a terrorist agenda.'' Attempted airplane 
shoe bomber Richard Reid converted to Islam while incarcerated in 
Britain, while another terror convict Jose Padilla was a violent gang 
member with a criminal record before his conversion.
    Interestingly, violent Salafist Jihadists, who apparently are 
classified as international in orientation by authorities, irrespective 
of their birthplace, citizenship, or gang affiliations, do not appear 
to have yet developed an imposing prison infrastructure or demonstrated 
a pattern of recidivism, though the exact extent of their prison 
radicalism is largely unknown and could very well accelerate as their 
representation and infrastructure evolves. Muslims, and converts in 
particular, appear to be among the fastest-growing segments of the 
prison population.
    The apparent relative lull in violent Salafist extremism in the 
correctional and post-release setting, while possibly temporary, is 
probably due to a variety of factors. First, because of a post-9/11 
pivot to terrorism interdiction, many Federal prosecutions come at 
earlier stages of criminality than was previously the case. Thus, some 
of those ensnared are less competent, motivated, and operationally 
advanced than was previously the case. Moreover, these defendants, 
often convicted on lesser charges, lack the structural and 
communicative connections to organized gang or terror groups compared 
to other extremists, or even fellow travelers on the outside. The 
Center on Law and Security at New York University, School of Law found 
that in the decade following 9/11 the five most charged offenses in 
terrorism cases were:
    1. 18 U.S.C.  371; Conspiracy to commit offense or to defraud the 
        United States,
    2. 18 U.S.C.  2339A; Providing material support to terrorists,
    3. 18 U.S.C  2339B; Providing material support or resources to 
        designated foreign terrorist organizations,
    4. 18 U.S.C.  1001; (False) Statements or entries generally, and
    5. 18 U.S.C.  1956; Laundering of monetary instruments
    Lastly, with the exception of individuals like Egyptian clerics 
``Blind Sheikh'' Omar Abdel-Rahman and hook-handed cleric Abu Hamza al-
Masri nearly all of the convicted Salafist Jihadists were not part of 
the hierarchy of the movement or considered theologically 
authoritative. The lack of accessible incarcerated charismatic leaders 
may have been a factor in stunting the spread of certain types of 
radicalism.
                       far-right-wing extremists
    Another prominent terrorist threat comes from adherents to an array 
of extreme far-right-wing ideologies. These far-right-wing extremists, 
who are properly distinguished from peaceful politically-active 
Conservative citizens, are steeped in deep-seated bigotry, an array of 
increasingly mainstreamed conspiracy theories, and exhibit a profound 
distrust of pluralistic democratic governance. Distressingly, it should 
be noted that trust in Government and other institutions including 
religion, media, academia, finance, and health care have declined 
precipitously in recent decades across the general population as well.
    The FBI reportedly lists 7 current domestic extremist categories, 
with 4 arguably falling under the extreme right-wing umbrella:
  <bullet> White Supremacists
  <bullet> Anti-government Militias
  <bullet> Abortion Extremists
  <bullet> ``Sovereign Citizen'' Nationalists.
    Some like white supremacists and neo-Nazis have a significant 
prison presence Nationally because they belong to more structured hate 
groups or racial criminal syndicates, like Aryan Brotherhood, Nazi Low 
Riders and California's Public Enemy Number 1, a racist gang that 
exists both inside and outside of prisons. In the racist neo-Nazi and 
white supremacist subculture there is significant approbation for 
violence, with imprisonment serving as a mark of distinction. These 
bigots, like Animal Liberation adherents, Jewish radicals, Black 
Separatists and violent Anti-Abortion extremists regard many of their 
incarcerated ideologues as political prisoners who took a selfless 
stand against a corrupt powerful Government and immoral society. In the 
neo-Nazi and white supremacist sub-culture some prisoners are hailed as 
folk heroes and political prisoners of the ``Zionist Occupation 
Government.''
    For example, prisoner and Federal felon David Lane was a co-founder 
of the violent domestic terrorist group, The Order, which took its name 
from fictional anti-Government terrorists in the racist Turner Diaries 
novel. Before his death behind bars in 2007, Lane became a folk hero 
and ``political prisoner'' whose written works were widely circulated 
throughout the white supremacy world, while his ``14 words'' became a 
mantra for violent racists, including the mass killer of African-
American Charleston church members earlier this year. Upon his death 
memorials for him were held around the world.
    AT Think Progress Online Magazine recently observed:

``White supremacist prison gangs are the only formal subculture in the 
American racialist movement that is thriving, and yet, ironically, 
their ideology is also the most superficial and least consequential to 
their day-to-day operations . . . The Aryan Brotherhood is widely 
considered the oldest and most notorious racialist prison gang in the 
United States.''
       cve responses in the correctional and post-release context
    In the correctional context, both pragmatism and civil rights 
protections can be coextensive. As President Obama counseled, ``As for 
our common defense, we reject as false the choice between our safety 
and our ideals.'' It is one thing to discuss terror threats in general, 
but prisons ensnare and release individuals first, rather than 
ideologies.
    As seen below extremists are individuals with differing influences, 
so there is simply no one-size-fits-all solution, nor one that is fool-
proof. Extremists like Holocaust Museum shooter James Von Brunn, served 
6 years in prison for an armed plot against Federal Reserve members 
before his murderous attack decades later. In France Amedy Coulibaly 
was radicalized in prison by ``segregated'' al-Qaeda supporter Djamel 
Beghal, before his homicidal rampage this past January, years after his 
release. Alleged Army of God member Shelley Shannon firebombed clinics 
and shot a physician. She nonetheless, still communicated with 
``Reverend'' Paul Hill during her incarceration, before he murdered two 
people outside a Pensacola, Florida clinic.
    Extremists come in three general types:
Ideologically Motivated
  <bullet> Religious
  <bullet> Political
  <bullet> Hybrid
Psychologically Dangerous
  <bullet> Cognitively Impaired OR
  <bullet> Sociopath
Personal Benefit or Revenge
  <bullet> (Most can be ``mixed and matched,'' but one is dominant.)

    Randy Borum defines radicalization as the ``process of developing 
extremist ideologies and beliefs.'' As Pete Simi and Bryan Bubolz point 
out the transition from nonviolent to violent ideology can include a 
variety of catalytic influences including:

  <bullet> internet propaganda,
  <bullet> social networks and personal connections to existing 
        extremists,
  <bullet> religious and political leaders,
  <bullet> and intergroup conflicts.

    Governmental programs promoting deradicalization, that is the 
social and psychological desistence from violent extremism, occurs 
internationally, where laws, state authority, societal norms, and 
religious roles vary significantly. Horgan and Braddock observed that 
internationally, these programs involve education, occupational 
assistance, mentoring, psychological assistance, and encouraging a 
shift to positive social networks. In the United States, where large 
numbers of prisoners are dispersed across Federal and State 
institutions, deradicalization programs are not as focused or 
sophisticated as some of our smaller allies, but are sometimes modeled 
from those used in the gang and cult disengagement process.
    Cilluffo, Cardash, and Khor detail an intensive, culturally unique, 
Saudi program that nonetheless still has a failure rate of 10-20%:

``Since 2004 Saudi Arabia has operated one of the most high-profile 
terrorist deradicalization and disengagement programs in the world. The 
Saudi approach blends coercion with an appeal to family/clan honor by 
integrating detainees' family members into the deradicalization and 
disengagement effort, in part by holding a close male relative 
responsible for keeping the released prisoner out of trouble following 
release. Significant financial resources are likewise invested in the 
case of each detainee in order to provide the individual with the tools 
necessary (such as a car and a job) to succeed outside of prison and 
the realm of violent extremist groups. Regarding the counseling 
component, Muslim clerics meet with detainees and prisoners as part of 
the Saudi program. To facilitate reintegration back into society and 
after-care, both governmental and non-governmental agencies are 
involved.''

    While domestic programs are still being developed, some key final 
points are worth noting. Correctional and post-release programs, by 
their very nature restrict liberties. (See e.g. Hudson v. Palmer, 468 
U.S. 517 (1984)). However, in 1987, the United States Supreme Court 
held that prison walls ``do not form a barrier separating prison 
inmates from the protections of the Constitution.'' (Turner v. Safley, 
482 U.S. 78, 84). The high court further held that prison regulations 
impinging on Constitutional rights must be ``reasonably related to 
legitimate penological interests.'' Still, the Court granted deference 
to prison officials by instructing judges to exercise a ``policy of 
judicial restraint'' in cases of Constitutional claims by prisoners.
    Outside of prison, in many instances, depending on individualized 
threat assessments and conditions of release, it may be necessary to 
monitor or restrict contacts, travel, weapon possession, drug use, 
technology, and employment, among other things. However, whatever 
restrictions or aftercare measures are implemented, they must be 
applied based on objective individualized criteria and not 
discriminatory stereotypes that not only violate civil rights, but 
damage offender disengagement from extremists, as well as trust from 
the mainstream communities that are essential to our partnerships.
    It is key that CVE responses in this context should take into 
account the following:
  <bullet> The reestablishment of moderating influences from offender's 
        family and community may be key, as they provide an alternative 
        during disengagement form anti-social associations.
  <bullet> Individualized, and culturally-specific programs and 
        aftercare, which may include emotional counseling, substance 
        rehabilitation and vocational training should be considered.
  <bullet> Flexible monitoring and counseling by trained professionals 
        should be individually tailored to promote disengagement and 
        prevent reinfection.
  <bullet> When indicated and legal, monitoring may include 
        associations, technology access, financial reporting, 
        employment, location, and long-distance travel.
  <bullet> CVE programs should be more open to legitimate academic 
        research as restrictions make objective micro research on 
        individuals as well as trend analysis difficult.
  <bullet> CVE programs addressing extremism should always be 
        implemented to consider all religious backgrounds and all parts 
        of the political spectrum in a manner that does not infringe on 
        Constitutional rights.
    In the words of Senator Robert Kennedy, let us work together toward 
this noble effort to: ``[D]edicate ourselves to what the Greeks wrote 
so many years ago: to tame the savageness of man and make gentle the 
life of this world. Let us dedicate ourselves to that, and say a prayer 
for our country and for our people.''
    Thank you. I will address any question the committee may have.
                                appendix
Definition of Terrorism
    The unlawful use, or threatened use, of force or violence by a 
group or individuals; to intimidate or coerce a government, the 
civilian population, or any segment thereof in furtherance of political 
or social objectives. (Federal Bureau of Investigation, 
Counterterrorism Division, 2007).
FBI National Domestic Threat Assessment
  <bullet> White Supremacist Extremists
  <bullet> Black Separatist Extremists
  <bullet> Anti-Government Militias
  <bullet> Abortion Extremists
  <bullet> Violent Animal Rights
  <bullet> Environmental Extremists
  <bullet> ``Sovereign Citizen'' Nationalists
  <bullet> Anarchists
Terrorist Incidents Directed Towards Americans by U.S. Deaths
    1. 9/11 Attacks, Incendiary Bombing by Aircraft, NY, DC, PA 2,975 
        killed, 9/11/2001 Al-Qaeda
    2. U.S. Marine Barracks, Truck Bombing, Beirut, Leb., 241 killed 
        (US) 10/23/1983 Hizbollah precursor
    3. Pan Am Fl. 103, Aircraft Bombing, Lockerbie, Scotland, 270 
        killed (189 US), 12/21/1988 Libyan Agent
    4. Murrah Fed. Bldg., Truck Bombing, Oklahoma City, OK, 168 killed 
        4/19/1995 Anti-gov't extremists
    5. Bath, MI School Bombings, Bombing, 44 killed, 5/18/1927 
        Disgruntled taxpayer
    6. Wall Street Bombing, Horse Cart Bomb, NY, 35 killed, 9/16/1920 
        Socialists/Anarchists Suspected
    7. Los Angeles Times Bldg., Bombing, Los Angeles, CA, 21 killed, 
        10/01/1910, Union militants
Source: Center for the Study of Hate & Extremism.
Extremists by Organizational Structure
            Lone Offender
  <bullet> Ted Kaczynski, Unabomber (1978-1995)
  <bullet> James Vonn Brunn, Holocaust Museum Shooter (2009)
  <bullet> Richard Poplawski, Pittsburgh Police Killer (2009)
  <bullet> Kevin Harpham, WA MLK Parade Bomb Plot (2011)
            Duo (Leader & Follower)
  <bullet> John Allen Muhammed & Lee Boyd Malvo, DC Sniper (2002)
  <bullet> Timothy McVeigh & Terry Nichols, Oklahoma City Bombings 
        (1995)
            Autonomous Cell
  <bullet> The Order (Neo Nazi, 1980s)
  <bullet> JIS (CA--1st operational Jihadist Cell)
            Command Cell/Large Group
  <bullet> 9/11
  <bullet> Symbionese Liberation Army
  <bullet> Weather Underground
  <bullet> Traditional Ku Klux Klan
Terrorism by Method
  <bullet> Explosives
  <bullet> Arson
  <bullet> Active Shooting
  <bullet> Targeted Assassination
  <bullet> Multiple Simultaneous Targeting
  <bullet> WMD
  <bullet> Sabotage
  <bullet> Chem/Bio
  <bullet> Radiological Nuclear
  <bullet> Disabling Infrastructure: Cyber, Transport, Communication, 
        Energy
Potential Targets by Type
            Symbolic
  <bullet> Government
  <bullet> Religious
  <bullet> Cultural
  <bullet> Political
  <bullet> Financial Center
            Military/Police
            Aviation & Transit
            Other Infrastructure: Power Grids
            Cyber
            Special Events/Anniversaries
            Assassination
            Idiosyncratic
            High Density
  <bullet> Events
  <bullet> Entertainment
  <bullet> Schools
  <bullet> Hotels

    Mr. King. Thank you very much, Professor Levin.
    I thank all the witnesses for their testimony.
    Let me begin on the point that Professor Levin raised at 
the end about the Constitutional guarantees, and obviously, 
there is a line we have to be very concerned about. I really 
ask all three of the witnesses. Commissioner Parker, you 
mentioned about the experiences of Singapore and Saudi Arabia. 
I would like to ask the witnesses if they are aware of any 
other deradicalization programs in other countries, and to what 
extent do you think we can use the methods used in a non-
democratic society such as Saudi Arabia or Singapore here in 
the United States without violating civil rights and civil 
liberties? I guess we will just go across the board. Mr. 
Bjelopera.
    Mr. Parker. Sure.
    Mr. King. Okay. Mr. Parker.
    Mr. Parker. My research at the time of my research, I found 
a couple of other programs, but they were all very similar in 
nature. All of them basically dealt with a--were framed around 
a counseling program where they basically targeted the 
ideological perspective of the inmate based on a 
misinterpretation of a religious text. All of them were pretty 
much the same, a 3- or 4-step process where they had 
counselors, people who come in and talk to the inmates with an 
attempt to try to change their mindset, basically, before they 
were released. So all of the programs that I found were pretty 
much the same.
    Mr. King. In what way can they be adapted to the United 
States, do you believe?
    Mr. Parker. Well, I think there is an open door there. 
Currently, we have to look at what are we doing now. What are 
we doing now in BOP when we house these offenders. I have had 
the opportunity to talk to Director Samuels and with some other 
people with the BOP. We basically take a containment model, a 
total security model where we house these individuals in a 
segregation unit, and we may provide them some type of 
vocational training at some point, but the point is, we are not 
doing anything to try to address the ideological motives that 
make them the way they are.
    The point is, if we train people to be welders, a 
vocational program, a terrorist, a convicted terrorist, and we 
turn them out with only that training, then all we have done is 
put a welder in society that is still a terrorist.
    Mr. King. Professor Levin.
    Mr. Levin. Yes, if I may. Cilluffo, Cardash, and Khor 
detailed an intensive culturally-unique Saudi program that 
nonetheless still had a failure rate of 10 to 20 percent. 
``Since 2004, Saudi Arabia has operated one of the most high-
profile terrorist deradicalization and disengagement programs 
in the world. The Saudi approach blends coercion with an appeal 
to family, clan, honor, by integrating the detainee's family 
members into the deradicalization and disengagement effort, in 
part, by holding a close male relative responsible for keeping 
the released prisoner out of trouble following release.''
    Significant financial resources are likewise invested in 
the case of each detainee in order to provide the individual 
with the tools necessary, such as a car or a job to succeed 
outside of prison, and the reality of violent extremist groups. 
Regarding the counseling component, Muslim clerics meet with 
detainees and prisoners as part of the Saudi program to 
facilitate reintegration back into society as well as after-
care, both governmental and non-governmental agencies involved.
    But the Saudi model, and I think this is interesting, they 
put a lot of money into it, it is very culturally-specific, and 
there, where clerics have a direct connection to the 
Government, there is a type of, I think, authority and gravitas 
that those religious leaders would have that we couldn't have 
in a more secularized society such as ours. To be sure, we have 
seen some disturbing cases that have been outlined in various 
testimonies before this committee before.
    I would say, though, if we look at a lot of the surveys 
that are out there, including the Pew surveys and others, the 
overwhelming majority of American Muslims are quite concerned 
about extremism as well. One of the reasons that they so love 
this country, and I think this is very important, is because, 
that there is not an orthodoxy of acceptable religious 
expression here. But I think, basically, common sense prevails.
    As President Obama said, we don't have to check our ideals 
and our pragmatism with respect to terrorism. The same rules 
can apply. We had a shooter and an arsonist of medical clinics 
go to prison and was counseling a reverend who then shot an 
abortion provider to death. So common sense prevails, but I do 
think that one of the things that we have to understand, and I 
put this in my testimony, is that there are different types of 
extremists that do not rely upon necessarily one aspect.
    So in other words, some theological-based extremists might 
very well have sociopathic or cognitive impairments. They may 
also be seeking personal benefit or revenge. So if we step away 
from stereotypes and approach each prisoner and the situation 
uniquely, it says something. I think just, if I may, Mr. 
Bjelopera made an excellent point, and that is, a lot of times 
it is attachment to social networks or some kind of connection 
to a leader that is important.
    Something that I just want to close with in answering your 
question, one of the things that we have not seen in American 
prisons yet has been this hierarchy where theological leaders, 
Salafists with gravitas are in prison. We get a lot of low-
level people who have been connected to the movement who are 
converts or through social networks or the internet. So we 
haven't seen yet, in other words, a network top-down, with the 
exception of Sheikh Rahman and a couple of other examples, 
where they have that gravitas.
    But interestingly enough, in France, where they segregated, 
for instance, clerics, nonetheless, one of the Paris massacre 
killers was in direct communication in prison, gets released, 
is monitored, and then 5 or 6 years later commits an act of 
brutal terrorism. So what we have to do is be flexible, and in 
some instances monitoring may be necessary. But if we are going 
to do so, we have to look at the individual characteristics and 
understand that fanatics come across the ideological spectrum. 
We want to go make sure that we look at people such as 
Coulibaly over in France, who did those terrible attacks, but 
also James Von Brunn who tried to do an armed attack on the 
Federal Reserve, and then decades later, shot up the Holocaust 
Museum. Or the head of the White Patriot Party who, in the 
1980s, was incarcerated, and then goes, shoots up a Jewish 
center decades later.
    We have to be careful with all extremists and look at their 
individual situations in order to come up with a CVE counter-
extremism rehabilitative or monitoring program. It has got to 
be individualized. It has got to be culturally-specific.
    Mr. King. I am over my time.
    Mr. Bjelopera, do you have anything to add? Then I will go 
to Mr. Higgins.
    Mr. Bjelopera. Just one slight comment. I defer to my 
fellow witnesses and their expertise in this area. But to 
paraphrase a scholar, the vast majority of people who hold 
radical beliefs don't necessarily become terrorists, and 
terrorists may not themselves primarily be driven by radical 
beliefs.
    In such a challenging environment, it is extremely 
difficult to figure out who is going to become a terrorist, who 
isn't, when to intervene, and how to intervene, and I can only 
begin to fathom the challenges that prison officials and law 
enforcement face in this area.
    Mr. King. Thank you. Mr. Higgins, as much time as you want.
    Mr. Higgins. Thank you. Mr. Bjelopera, in your testimony, 
you described non-traditional form of Islam practiced in United 
States prisons termed ``Prison Islam.'' This form of Islam is 
not necessarily consistent with jihadist principles. Is there a 
trend in U.S. prisons that would suggest that the current form 
of Prison Islam is being supplanted by a more extreme form of 
jihadist Islam?
    Mr. Bjelopera. Thank you. It is very difficult to, given 
public information, publicly-available sources, to dip into 
that realm and understand trends and broad currents in terms of 
faith, in terms of radical beliefs. Again, I would defer to 
people who have studied prisons directly or worked in prisons 
directly who may have greater expertise in the general trends.
    One of the other challenging issues here is that our prison 
system isn't unitary. There are all sorts of different levels 
of prisons and different structures of authority.
    Mr. Higgins. Mr. Parker.
    Mr. Parker. I would say, you know, again, that is very hard 
to determine. One of the recommendations that I made was there 
is definitely a need for more social science research in our 
facilities. Correctional administrators must be willing to open 
the doors to allow researchers in. Academic facilities must be 
willing to go through the--work with individuals through the 
IRB process to get research approved for prisoners. There is a 
big data set there that we are missing as far as research 
inside of our correctional facilities.
    Mr. Higgins. Mr. Levin.
    Mr. Levin. You know, interesting enough, in the past, when 
prisoners converted to Islam it actually had a positive impact 
with regard to rehabilitation in many, many instances. Giving 
up many vices and violence and becoming more introspective, is 
a part of the Islamic faith. Indeed, introspection during the 
month of Ramadan, for instance, proclamation of faith, prayer 5 
times a day, and adhering to, for instance, dietary rituals 
puts a structure, and in many ways, in the past, in many 
instances, had had a positive effect.
    Here is the problem. We currently now, according to 
publicly-available sources, have 900 open investigations 
relating to ISIS and related extremists. We have seen that 
there have been approximately 125 prosecutions, and the average 
defendant that we have seen has been about age 31. The top 5 
charges have been providing material support to terrorism or 
terrorist groups, both foreign and domestic, money laundering, 
et cetera. So we have two things that are happening in this eye 
of the storm.
    Last year, we haven't had a lot of prosecutions relative to 
what we had 10 years ago. So we had like 200 or something like 
that. Yet we have 900 open investigations. We had 1,200 cases 
in 2002, so we are in the eye of the storm now. One of the 
things I have to say is, in August 2001, there was a New York 
Times op ed, which spoke quite authoritatively using 
retrospective data on how Salafist jihadist terrorism wasn't a 
problem, and then weeks later we have the 9/11 attacks.
    We are in such a fluid situation both with the overall 
terror threat matrix and with respect to ISIS and other groups. 
In this month's American Behavioral Scientist, which I co-
edited, I did an article about one small group of 22 people 
that had an internet presence that in 2009 to 2010 was linked 
to the 30 to 40 percent of terrorist plots in the United 
States.
    Now we have a sophisticated quasi-state recruiting effort 
using the internet, with 900 investigations in 50 States. What 
is going to happen when these people come into prison in 
greater numbers and there may be people with more clerical 
authority? So we just don't know. By the same token, we have 
Christian identity adherents who are very upset with the kinds 
of changes that are going on in society now.
    The Klan hit its biggest zenith at a time of similar change 
almost 100 years ago. So we have basically a chaotic, very 
fluid structure--I am sorry, situation with regard to extremism 
that is coming from different places. I am worried that the 
salutory effects that exist now are temporary, and that in the 
future, as more people come in who have been radicalized 
through the most sophisticated effort we have ever seen in 
history involving technology, that this may very well change 
within a very short time.
    Mr. Higgins. Thank you very much. I would ask that the 
Chair recognize Congressman Langevin to participate in this 
hearing.
    Mr. King. Without objection, so ordered. It is a pleasure.
    Mr. Langevin. Thank you.
    Mr. King. I now recognize the Chairman of the 
Transportation Security Subcommittee, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman. I want to focus on 
something a little different here, and that is, the access to 
information that prisoners have that might lead to 
radicalization. I know you have the word of fellow inmates, but 
I just concluded a study from the Foreign Fighters Task Force 
with ISIS, and it is painfully clear that ISIS is radicalizing 
people over the internet at an alarming rate. The question I 
have for each of you is, on the Federal prison level as well as 
the State prison level, what type of media access do they have?
    I know it is some of it is monitored, some of it is not 
from my days as a Federal prosecutor for 20 years, and I got a 
lot of good information on that over the years to bring cases. 
But I am concerned about their access to the internet, I am 
concerned about their access to various sources of media which 
seem to be never-ending these days.
    So if you could each comment on that for me, I would 
appreciate it.
    Mr. Bjelopera. I can comment only in general terms. I would 
imagine that they have much less or less access than they would 
on the outside. One of the factors that I would also throw in 
there is that many of these suspects related to ISIS who are 
being put into the system, arguably have short-term experience 
in terms of radicalization on the outside, and so it will be 
interesting to see what happens on the inside of prison cells 
to these people who haven't spent maybe years or decades, maybe 
just months or weeks thinking about radical violent jihadist 
things.
    Mr. Katko. Again, my thing is once they get in there, what 
do they have access to? That is the more important question.
    Mr. Parker. Thank you. One of the primary points that I 
would like to make is, just because someone is in a 
correctional environment, don't assume they don't have access 
to the information.
    Mr. Katko. That is my point.
    Mr. Parker. You know, in today's correctional environment, 
not only in Tennessee but across this Nation, we fight every 
day to keep illegal cell phones out of our facilities. We have 
been in touch--a lot of other correctional agencies have been 
in communications with FCC to try to come up with a solution 
that would disable these phones inside that correctional 
environment.
    We are not allowed to jam the cell phone signal inside the 
correctional facility. So the only other options at this point 
is very expensive other technology that often becomes outdated 
within a year.
    We try to monitor the literature that comes in through our 
mail rooms. Most prisons do. They have a monitoring process. 
One of the things that is critical there, though, is that we 
have staff that is trained to recognize that message, that 
violent extremist message, the message that we will not allow 
in our facilities. You have to have people at that ground 
level, correctional-officer-level, properly trained to 
recognize that and to catch that coming through the filters 
that we have for inmates receiving information.
    They have access to their family, they have access to the 
television, they watch the news. So an inmate with an illegal 
cell phone in prison has a lot of access to the media and also 
what is going on in the world.
    Mr. Katko. Now, what about their access to the internet or 
anything? Do they have any access to computers?
    Mr. Parker. Well, they have access to computers, but a 
computer that they would have access to in the facility is 
basically locked down. They can't get to a lot of internet 
sites. It is very limited. But a person with an illegal smart 
phone inside the facility has access to the internet.
    Mr. Katko. Okay. Then, of course, they have access to books 
and magazines, and they also have access to telephones to talk 
to individuals.
    Mr. Parker. Absolutely. That is a constant struggle. That 
is one of the things that a corrections department has to have 
their security threat group coordinators that work in 
conjunction with the mailroom staff to vet that material coming 
in to identify that message before it gets to the inmate.
    Mr. Katko. Thank you. Mr. Levin.
    Mr. Levin. Yes. One of the things, you know, very 
interesting, again, what I would like to get permission to do, 
because of these questions, is to introduce into the record 
some of the articles that we have in this month's American 
Behavioral Scientist, which in some way is responsive to these 
questions. One of my colleagues--two of my colleagues, 
actually, Pete Simi and Bryan Bubolz, wrote about how folks get 
radicalized, and they listed 4 things, and at the top was 
internet propaganda. Of course, there is social networks, 
religious and political leaders, and then there is intergroup 
conflicts, which can be catalytic, anything from Waco, for 
instance, to the civil war in the Middle East.
    I can't tell you how important----
    Mr. King. Without objection, that article will be 
introduced into the record.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Levin. Thank you so much, Mr. Chairman. I can't tell 
you how important this recruitment has been, again, across the 
ideological spectrum. So you can get the Turner Diaries, which 
has been linked to such things as the Oklahoma City bombing. 
Look at page 39 of that book. It describes a truck bomb attack 
on a Federal facility at 9:00 in the morning, and that book was 
sold by Timothy McVeigh below cost to get the word out.
    David Lane was in prison. David Lane was a part of a group 
called The Order that was inspired by this book, the Turner 
Diaries. The 14 words about preserving the white race that the 
Charleston shooter used, he would send materials out through 
his wife while he was in prison. So now we have not only that, 
the Turner Diaries is on the internet. We also have Dabiq 
Magazine, on-line ISIS magazine, we have Inspire magazine by 
AQAP. Right after the Boston Marathon bombings, I was on 
National television, I said, you know, this is really 
interesting. There is this magazine that just came out, and you 
know what was in it, a recipe to make a pressure cooker bomb. 
Indeed, what came out at the trial was the Tsarnaev brothers 
had that magazine.
    So internet access is extremely important to the 
recruitment. But what I am saying to you is, it is important 
across the ideological spectrum, and what we must not do is 
say, well, we are just going to go after one type of extremist 
because what I can tell you in this business, like politics and 
baseball, what you might think in June, come October will be a 
different story.
    Mr. Katko. Thank you very much.
    Mr. King. I recognize the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. Let me 
just say how really good our witnesses are. I mean, they are--
you know, that is a credit to you.
    Mr. King. Once again, we agree.
    Mr. Thompson. Well, yeah, yeah, yeah, and you see we are a 
good committee.
    Mr. Parker, as somebody who is in this business every day, 
I find it, that the thought in corrections, obviously, a few 
years ago it was lock them up, throw away the key, don't 
provide anything to them, and when their time is up, push them 
out the door. I think the recidivism rates and other things 
that came behind that, people have now started saying we got to 
do some other things to try to tamp down the likelihood of 
people coming back once they get out.
    So is it your experience that if we start looking at this 
terrorist threat that potentially can evolve inside the 
prisons, we need to look at it as a whole rather than as a 
silo? In other words, let's look at all the bad guys and 
develop a strategy around that?
    Mr. Parker. Absolutely, sir. A couple of points I would 
like to make. In the correctionals field, when we talk about 
violent extremists, when we talk about the culture and the 
environment that we work in every day, that prisoners live in 
every day, I think we have to focus on two things. One is the 
environment. Now, there is a lot of room left for research in 
regards to the environment. What is it about prisons, what is 
about about that environment? Again, all prisons are not the 
same. What is it about that environment that promotes 
radicalization? What can we do, as correctional practitioners, 
as lawmakers, to try to change and modify that to mitigate the 
threat of radicalization? That is part of my research that we 
considered. What can we do on that side?
    The other piece is the environment of the rehabilitative 
initiatives that we have to put in place. I think you are 
exactly right. If we lock people up under the control and 
containment model and just deal with the security aspect of 
putting them away, putting them in an environment to where they 
have no access to anyone else or any programs, then we keep 
them there until the day comes when they knock and it is time 
to let them go home.
    So then we asked ourselves the question, what have we done 
to prepare these individuals to return to society? I think that 
is exactly right. It doesn't matter if it is an Islamic radical 
or if it is a white supremacist. We have to take the same 
approach across the board. But it is a very important question 
to ask, what are we doing in the corrections field to prepare 
these individuals to return to our communities? Because I think 
a lot of times we forget, over 90 percent of them will be 
returning. That is critical.
    A colleague of mine, a Michael Brown that studied at NPS, 
addressed this in 2011 when he wrote a thesis on the ripples 
that created when we released these terrorists from prison, how 
do we know where they are, how do we track them? Do we need to 
track a terrorist that is released from BOP back into the 
community?
    We require other inmates in some categories to be 
registered. That is a question I think that needs to be put on 
the table and discussed. Do we have a public interest in 
knowing where a convicted terrorist lives at, and where they 
move to? How does the sheriff or the official police chief or 
the DA in a county know who is in their county?
    I think those are all relevant questions, but I think more 
relevant is that what we do inside that facility to prepare a 
person to return. If it is an ideology that promotes extremism 
and radicalization, then I think we need to look at possible 
solutions that meet due process and civil rights standards, 
that we can challenge them and talk to them, have discourse 
about what they believe, and try to use every tool we have to 
change their mindset or at least to get them to disengage 
before we turn them back out into the community.
    Mr. Thompson. Thank you. Mr. Levin, are you aware of any 
recommendations or research as to what we can look at once a 
person leaves a penal institution and get back into society 
that meets the civil rights, civil liberties test?
    Mr. Levin. Yes. One of the things that I do want to point 
out is that we don't imprison ideologies. We imprison flawed 
people. So it has got to be individualized and culturally-
specific. I think a lot of times, in this media-driven world 
that we are in, you know, sometimes we are seeing all Muslims 
all the same and then there is something else and it is all 
extremist Nazis all the time. What I am saying is, our center 
sees everyone all the time.
    You know, I am worried about the animal liberation 
extremist. You know, one of the things that we also have to 
take into account is, we are presuming that when an extremist 
is in prison, for instance, that they will only--if they are 
white supremacist, they will only look at white supremacist 
material.
    There is animal liberation material. There is radical 
material across the board which might help them become 
operational even if it is not something they share 
ideologically.
    So I think a couple things: First, we have to look at an 
individualized and particularized threat matrix that is 
prisoner or released-person specific. What I worry about is 
that when we have a CVE program we are going to be looking at 
the shot-on-goal coming from here and it very well may come 
from here next time. I think there are content and viewpoint 
neutral aspects that must be incorporated.
    So there might be an animal liberation person that gets 
released from prison, and we will have to make sure that their 
associational activities might be restricted, their travel 
might be restricted if appropriate, their access to the 
internet may be restricted; not necessarily because of their 
ideology, but because they happen to be a person prone to 
violence and certain associations.
    We know that when you take a focus on ideology only off the 
table, we see that there are various characteristics that many 
of these people share. I have interviewed convicted terrorists 
in the Middle East, I have interviewed Aryan folks, I have 
interviewed Jewish extremists, Animal Liberation, and they 
share certain characteristics. When they get to a certain 
point, they are a threat irrespective of what ideology they are 
looking at.
    Certainly, ideology does play a role. Interestingly 
enough--and I will close with this--many of the people, 
particularly converts, for instance, whether it is people who 
came into the Christian identity world, which is a racist 
religion of white supremacy--it is not a Christian religion--
where people who go into violent radical Salafist jihadism, 
many of them had unique personal issues that prompted them to 
anti-social behavior.
    We have to look at that as well in the context of the 
ideology. If you look at ideology alone, without the 
individualized drivers that took people into this, then we are 
missing it. Jose Padilla--and it is pronounced Padilla, by the 
way--Jose Padilla was a gang member in south Florida.
    Bledsoe experimented with different religions. He was the 
Little Rock recruitment shooter, bounced from religion to 
religion. He had antisocial issues before. So if we are just 
saying, well, we are going to have a CVE program that focuses 
only on one ideology, then we may very well be looking there 
when the shot-on-goal is coming from here. I believe that we 
can do so in a Constitutional manner.
    Indeed, if we only look at one community, I think there are 
not only pragmatic issues but Constitutional issues as well.
    Mr. Thompson. Thank you.
    Yield back, Mr. Chair.
    Mr. King. First, just for the record, Bledsoe's father 
testified before this committee twice, back in 2011.
    Mr. Levin. Yes.
    Mr. King. Was a very compelling witness.
    I now recognize the gentleman from Pennsylvania, Mr. 
Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    My constituent senior correctional officer Eric Williams of 
Nanticoke, Pennsylvania, proudly worked in a United States 
prison. He was brutally murdered by convicted gang assassin 
Jessie Con-Ui on February 13, 2013. I applaud the decision by 
the prosecutors to seek the death penalty for this terrible 
crime. I want to thank his coworkers, some of them who are in 
town today, for the job they do every day to make our Nation a 
safer place.
    One simple bill that would help the 39,000-plus employees 
working in our Federal prison system is the Eric Williams 
Correctional Officer Safety Act, introduced by David McKinley, 
Tom Marino, and Matt Cartwright. I am a cosponsor of the bill, 
and Pat Toomey has introduced it on the Senate side. It is a 
simple, bipartisan bill that will require the Bureau of Prisons 
to issue pepper spray to correctional officers and employees in 
high- and medium-security prisons.
    Assistant Commissioner Parker, can you describe the 
conditions under which pepper spray would be helpful to prison 
workers, and why would pepper spray be preferable over some 
other form of nonlethal weapons?
    Mr. Parker. Yes, I would be happy to. Chemical agents are 
one of the items that we use for officer protection. When you 
look at the level of use of force, it is usually the second 
level, third level up. Once you establish physical force, the 
chemical agents are available. The only caveat there is to make 
sure that individuals are trained in the use of chemical 
agents, the proper use of chemical agents.
    We issue chemical agents to our officers in Tennessee, 
especially those working in maximum custody units and high-
security restricted housing areas. Yes, it is a very productive 
tool. You have inmates in physical altercations or even an 
inmate that may attack an officer. Chemical agents is one of 
the first resources that would be available to use that.
    It basically hampers the offender's ability to see. It 
disorientates them. So it makes it a lot easier to handle the 
inmate. Very productive tool.
    Mr. Levin. If I may, as someone who has actually been 
sprayed with pepper spray, one thing when I was in the NYPD, we 
had someone who--I was not personally involved in this--who was 
on drugs and extremely strong and in a close situation. Pepper 
spray was ineffective. So I am not opposed to your bill, but 
what I can say is sometimes a risk in a closed environment is 
that depending on how it is dispersed, it could affect 
correctional officers and other prisoners.
    Additionally, some of these prisoners are pretty brutal 
people. If they were to grab the pepper spray, it could have a 
deleterious effect on correctional officers. But I will leave 
that to the folks with the training and the design. But having 
the opportunity to be armed with pepper spray, it is a tool but 
it isn't fool-proof.
    Mr. Barletta. Yeah. In this case Con-Ui kicked Williams 
down a flight of stairs before brutally beating him and 
slashing him to death with two shanks. This may have been a 
case had he been able to have something to defend himself, he 
would be alive today.
    One final question: As a former mayor before I came here, 
so how will a local police chief, sheriff, or mayor know if a 
terror inmate will be released into their community, and are 
you aware of a process for sharing this information?
    Mr. Parker. We often notify police chiefs, district 
attorneys, judges when we release individuals back into their 
communities. I would also say that I am not aware of a process 
in regards to a terrorist being released. I would have to defer 
to BOP to what their policy is on that. But an important point 
that I would point out is, knowing that that individual is back 
in your community is good, but I think we have an interest in 
knowing where that individual is at.
    I mean, again, we don't require them to register. As far as 
I know, we don't require them to register. I made this point 
earlier. There are some inmates that are released that we 
require to register, a database. We know when that individual 
moves to another town or moves to another area. Again, I think 
that needs to be looked at and needs to be considered, because 
it is important that we be able to track these individuals when 
they are released.
    Mr. Levin. If I could just interject one quick point. Here 
is another issue, and you are a former prosecutor. One of the 
things that we have seen with regard to the prosecutions from, 
let's say, 2002 for the next several years--and that is why I 
brought up in the written testimony the different charges. The 
Justice Department right after 9/11, properly so, said, you 
know, we are not going to wait until plots come to fruition. We 
are going to interdict. That is the new strategy.
    What that has done is that has cast a wide net that has 
ensnared operational folks like the JIS people in southern 
California, who interestingly enough, were found because of 
just good local police work by the Torrance Police Department, 
and then they got the JTTFs involved, you know, the fusion 
centers.
    We have to make sure that we share information, but not 
every person that gets released is going to be of the same 
threat level because that net ensnared people who in some 
instances were just violently-talking imbeciles as opposed to 
operational folks who had a depth of motivation. That is 
something that is really important as someone who studies both 
hate and extremism.
    We have a matrix that involves how operational is someone, 
how connected and networked are they, and how shallow or deep 
are their hatreds? For instance, an article in Think Progress 
this summer talked about white Aryan prison gangs. They are 
among the most violent; and indeed, for instance, Aryan 
Brotherhood of Texas would kill their own members with lye and 
torture them with fire and things like that because they were 
criminal syndicates.
    But some of these groups will oftentimes partner up with 
other folks who are outside of their in-group because it is 
effective for drug dealing, for instance. So we have to look at 
both the violence, the type of violence, the depth. Because 
what we don't want to do is inundate law enforcement with 
information that may or may not be specific to an actual 
terrorist threat.
    One other point with regard to information sharing that all 
my colleagues really have begged me to say, and that is, not 
only do we want to continue the information sharing, which has 
been relatively good in the post-9/11 period with the fusion 
centers and even between Federal law enforcement, but there are 
a lot of us who are former police officers, former FBI agents, 
who are in academia now who would love to get the opportunity 
to be able to do some kind of trend analysis but we don't have 
access to prisons and prisoners.
    That might be something that we should look at, opening up 
for the appropriate people, local law enforcement as well as 
academia, to get information. Information is the life blood of 
what we are doing and in such a fluid situation. What I am 
telling you is my testimony might very well, along with my 
colleagues and friends here, be somewhat more irrelevant 8 
months from now than it is today because of fluidity of the 
situation.
    When we do share information, what I think is important is 
that we have some kind of trained person vetting saying, okay, 
this person who has no criminal record and merely was ensnared 
with shallow hatreds and low operational efficiency is not the 
same as the JIS folks, and that is something that I think is 
important. But yes, you are completely correct.
    Mr. Barletta. Thank you.
    Mr. King. Does the Ranking Member have any questions?
    Mr. Higgins. No.
    Mr. King. Recognize the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would welcome our witnesses here today. Thank you for 
your testimony. It has been very informative.
    To the panel, we know that violent extremism is a global 
phenomenon, and we have seen incidents of radicalizations in 
prisons around the world. Can you describe similarities and 
differences between the prison environments in the United 
States and elsewhere, particularly Europe, and what elements 
might make the U.S. corrections system more or less likely to 
allow prisoners to radicalize?
    Mr. Parker. I am not that familiar with the other 
correction environments in other countries. In America we 
have--a lot of facilities have set standards. The American 
Correctional Association sets best practices standards that a 
lot of facilities follow. So I feel like the conditions of 
confinement in America is pretty good. I believe they have 
access to the things they need.
    In regards to their living conditions, I think it is very 
acceptable. I think there is things that make up that 
correctional environment though that I have identified that 
could contribute to radicalization, and I have listed those. 
You know, I think we have to have a dual strategy where you 
have to have a security component and rehabilitative 
initiatives inside the facility.
    We have to do rigorous vetting and monitoring of prison 
chaplains and volunteers. I don't think just a criminal 
background check is sufficient. I think we have to understand 
and know the message of people who come in, in the volunteer 
status to hold these services.
    We need to encourage positive inmate family social 
interaction and communication. I think that is a positive. 
Policies should encourage social science research. I think the 
gentleman here has testified to that. We are missing a point 
there where there is more work to be done and research inside 
of our facilities to detect those issues that might promote 
radicalization.
    Then provide staff training and developing intel networks 
with criminal justice partners. I think we have done a good job 
with that. The correctional intelligence initiative works well. 
It is a good framework. But it is very important to know that 
you have to train those people at that ground level, those 
correctional officers, those counselors, those people that deal 
with inmates every day, to first of all, recognize and 
understand what kind of threatening message we need to 
identify, what we need to look for, and how to pass that 
information on, where it can be properly vetted with the FBI 
and the Joint Terrorism Task Force.
    Mr. Langevin. Thank you.
    Mr. Bjelopera. Just a quick comment. One of the big 
successes in the post-9/11 era in terms of fighting terrorists 
in the United States was the expansion of Joint Terrorism Task 
Forces. Based on public information, it seems apparent that BOP 
and FBI work extensively on Joint Terrorism Task Forces, 
sharing information about what is going on inside and out of 
facilities.
    Mr. Langevin. Thank you.
    Mr. Levin. Can I tell you a joke I can't use anymore? It 
used to be--and an FBI agent told me this. It used to be, what 
did the FBI agent say at the scene of a terrorism attempt? I 
would like to thank my local colleagues. We got it all under 
control as he screwed the light bulb into the faucet. I can say 
that because an FBI agent told me that.
    Now the level of cooperation is actually quite good. We 
have terrorism early warning groups, JTTFs, fusion centers. 
Again, the JIS case was an example of something that should 
happen in this context. The Torrance police uncovered some gas 
station armed robberies. These folks were operational. They 
were going to attack military institutions, National Guard, 
Jewish institutions, and Israeli targets, and they came across 
material and then got the whole regional consortium together.
    Put that back to the assassination of Meir Kahane when 
there was a lot of extremist material that was uncovered, but 
sat in boxes without being analyzed. So today things are 
definitely a lot better, and I would say that anything that 
this committee could do to encourage cooperation between law 
enforcement.
    But let me just say also, NGOs, we have folks in monitoring 
entities that are not Government-related and academia who I 
think would be a resource. Like, for instance, when we had a 
graduate student that was trying to study to make a typology of 
what was going on with post-9/11 extremists, it was very 
difficult to get information.
    Again, I want to make sure that I mention two things: 
First, our response has to be individually specific because we 
don't have automatons that come out of like a white supremacist 
extremism factory or a Salafist jihadist extremism factory or 
an Animal Liberation factory. We have folks who, through a 
variety of networks, exposure to propaganda, and indeed 
personal dysfunctions, go into extremism for different reasons 
and in different depths.
    One of the things that we know about hatred and extremism, 
it is based on three things: No. 1, emotion. What is 
emotionally appealing about extremism to these folks? No. 2, 
they adhere to a belief system; and then No. 3, some kind of 
effective component, affective component, rather, where there 
is behavioral change. They can be different.
    What we want to make sure is that we get everybody involved 
in the matter. As Chairman King knows, even though we are both 
Mets fans, Bucky Dent got a hit in 1978. Nobody was looking at 
Bucky Dent and the Yankees got into the World Series. So we 
really have to be open with respect beyond ideology.
    Because some of the people that we are seeing--and this is 
something--some of the people that we are seeing go from a 
buffet of ideologies, and they become operational with their 
own idiosyncratic drivers. So it is not like everyone is in a 
tight box. So I think for that reason we have to involve the 
Joint Terrorism Task Forces with outside monitoring 
organizations and academia who could give them further insight.
    Because what we are seeing now is a very diffuse spectrum 
of actors that don't fit in boxes. We might have someone 
tomorrow who commits an attack with multiple hatreds who does 
not fit one particular profile and may have had individuals 
strain exposures that catapulted him or her to action. Most of 
them are male, though, however.
    Mr. Langevin. Thank you.
    Mr. Chairman, I have other questions I will submit for the 
record, but thank you. I yield back.
    Mr. King. Thank you.
    Before I recognize Mr. Keating, I would like to point out 
for the record, I was not expecting a home run off Jeurys 
Familia in the ninth inning last night either. That was as big 
a surprise as Bucky Dent.
    But in any event, as a Massachusetts man, let me introduce 
Mr. Keating.
    Mr. Keating. I am disappointed in this Bucky Dent 
conversation, and, you know, if it wasn't for the Fenway wall, 
maybe it wouldn't have gone over there. But that is another 
sore subject of discussion.
    Mr. King. Before you got here, they were commenting on how 
bipartisan we are and how we get along and now you are trying 
to interject a Red Sox/New York feud into this. It is really 
inappropriate for this committee.
    Mr. Keating. Well, for a team that finished as low as ours 
did, this is rubbing real salt in the wound. But that is 
another topic of terrorism that we will talk about later.
    I just want to thank you for being here. But one of the 
things I am grappling with and looking at this issue is--and it 
is hard for a lot of prison programs to measure the 
effectiveness. But what kind of metrics could be used? Mr. 
Levin was just talking about how individualized this is, and it 
is not a great history right now.
    So I guess, I will ask just one question and include two 
threads: One is, what did we learn that wasn't working when we 
were looking at some of the other programs that are functioning 
abroad; and No. 2, what kind of metrics would you be looking at 
so we can measure the need and the effectiveness of anything we 
do here? Because that is important as well.
    Mr. Parker. In the research on the two programs that I 
looked at, and of course it was open-source and very hard to 
get information, and, again, you have to consider that 
information is open source and it is what they reported. So I 
understand the issues surrounding that.
    But, you know, they talked to--Saudi Arabia and Singapore 
both said that it was very important to have individuals who 
participated in the program as counselors who were recognized 
as legitimate. The detainees had to recognize these individuals 
as legitimate and could speak on the issue of the 
misinterpretation of the Quran in this case. That was basically 
the primary issue that they focused on as a must have for the 
program, along with the social support, the families, the 
community model they used after the inmate was released.
    As far as our metrics, you know, I am not sure how we would 
measure that. Again, we have to look at what are we doing now, 
and I think that is an important question. What are we doing 
now, and where do we want to go in the future? How do we take 
that first step to begin looking at a process to prepare these 
people to return?
    I think also important is the risk assessment. Coming up 
with a validated risk assessment that we can use to target 
these individuals--or maybe not target them, but to look at 
them and to have some type of idea of what kind of programs 
they need, what kind of--is supervision possible once they are 
released from that correctional environment back into our 
communities?
    Mr. Keating. What do we have in place now for like some of 
the domestic terrorist groups? Do we have programs in place now 
for skinheads, some of the other white supremacist-type groups? 
Is there applicability back and forth?
    Mr. Parker. No, as far as challenging their mindset, the 
thought process, no, we track them. We basically track them in 
the correctional environment. There is anger management 
programs that they can be involved in, things like that. But 
no, there is no specific programs that target the ideology that 
they use.
    Mr. Keating. Okay. Well, thank you, and it is important to 
look back at the past, even if it is painful with Bucky Dent.
    I will yield back to the Chairman, reminding him that there 
was a football game with the Jets recently and New England 
Patriots. It is good to be cautious of the present as well as 
the past. Thank you for taking the time here.
    Mr. Levin. If I may, I will take you to a game in Fenway. I 
have always wanted to take my son to a game at Fenway. So you 
have a deal.
    Just very briefly, Horgan and Braddock, who are two 
experts, observed that internationally these programs outside 
of the United States involved education, occupational 
assistance, mentoring, psychological assistance, and 
encouraging a shift to positive social networks away from 
extremists, for instance.
    In the United States, though, where large numbers of 
prisoners are dispersed across Federal and State institutions, 
deradicalization programs are not as focused or sophisticated 
as some of our smaller allies. But when they are modeled, they 
often are modeled, for instance, as my colleague Pete Simi 
pointed out, and Mr. Bubolz, they are often modeled off of ones 
that have been used in the gang and cult disengagement process, 
which may very well be effective.
    But, again, we are at the nascent stage of this, and we 
don't have a lot of great data. Fifteen years ago there was 
something called Operation Grow Hair out of the central 
district of California's U.S. Attorney Office, with regard to 
skinheads. We just don't know how effective these programs are. 
Did these people not reoffend because of the program, or did 
they not reoffend because of other factors?
    Mr. Keating. Yeah, I think we have to get a handle on the 
metrics. We can clearly look at other examples to see how 
effective that is.
    So again, I thank you. This has been very painful. You have 
gone from Bucky Dent to something called Operation Grow Hair.
    Mr. Levin. I will never be invited back.
    Mr. Keating. So, I am going to lick my wounds, and I yield 
back.
    Mr. King. Thank you, Bill. Thank you, Mr. Keating.
    I have two questions I would like to ask, one to Mr. 
Bjelopera: In the 2011 administration CVE strategy, they 
included a section on prison radicalization, which included 
goals for improved awareness of the risk of extremism in 
prisons, enhanced screening to identify inmates with extremist 
views, improve detection of recruitment efforts, and increased 
information sharing.
    The committee has done a lot of oversight over this 2011 
strategy, and I don't believe we found very much progress. But, 
are you aware of any progress toward these four goals in the 
U.S. prison system, and do you have any recommendations for the 
best approaches to address these areas?
    Mr. Bjelopera. I am not aware of any progress. It doesn't 
mean necessarily that there hasn't been. I am just not aware of 
any progress from the public record. I would imagine that one 
of the things that the administration may consider is looking 
at more intervention in terms of prison radicalization and CVE 
in prisons, but I am not even sure if that is going on.
    Mr. King. Okay. I would like to ask Professor Levin, I 
agree with everything you are saying about the skinheads, 
Nazis, Aryan Nation, and they are as malevolent and evil as 
anyone else, that is a concern I have.
    But the question I have is, those who are evil that existed 
prior to September 11. After September 11, whether it is the 
Department of Homeland Security or the Committee on Homeland 
Security, or even the NYPD which you are familiar with. You 
know that for years the NYPD was monitoring these extremist 
organizations, including certainly skinheads, I am aware of, 
and others; and yet after 9/11 they set up a special 
counterterrorism unit to deal with this unique form of Islamist 
terrorism.
    In the prison system, is there one system to address 
extremists or in view of the international dimension of the 
threat that comes from Islamic terrorism? Again they killed 
more people maybe than anyone who has come out of prison, but 
the potential of a mass disaster because of the international 
dimension of the Islamist threat, does that warrant, in effect, 
two different systems of monitoring radicalization in the 
prisons?
    Mr. Levin. They didn't come out of the prison system 
though. He did not----
    Mr. King. No, no, I am just saying as far as the potential 
evil. I am not saying he came out of the prison.
    Mr. Levin. Oh, sure. Sure.
    Mr. King. I am just saying that obviously there are cases 
where domestic radicals, domestic extremists can cause large 
casualties, no doubt about it. So I am not talking about really 
the extent of the evil. I am talking about the nature of the 
dimension and the international dimension that comes with 
Islamist jihadists.
    Mr. Levin. Sure. But, you know, there is an international 
dimension, for instance, to anti-Muslim violence. When I go to 
bed at night, I worry about an extremist shooting up a mosque 
in addition to worrying about a Salafist jihadist and in 
addition to worrying about all these other folks.
    Look, narcoterrorism has an international----
    Mr. King. But again, we go like to the NYPD, you are 
familiar with 2,000 people working on Islamist jihad in 
addition to what they are doing as far as the other radical 
groups.
    Mr. Levin. Right. But I would say, though, is that with 
regard to the risk of violence, for instance, narcoterrorism 
has an international component. We are now seeing for instance 
in Israel the Israeli Government classifying Jewish extremists 
as terrorists and using their rules like that. We haven't seen 
that yet come here. What I am saying is, I am concerned about 
the shots-on-goal that come from close to the goal, back at the 
end of the ice.
    So, if there is an international component, by all means, 
we don't have to put blinders onto it. But the Animal 
Liberation world has an international component to it, for 
instance. You know, the violence actually in Europe with regard 
to the Animal Liberation people has been worse.
    So yes, if there is an international component, we 
shouldn't put blinders on. What I am worried about is something 
where it is all Muslims all the time and we craft something 
that will be perceived in the Muslim community as being 
discriminatory and then lose some of our best allies in this.
    Some of the most wonderful people that I have worked in the 
counter extremism world, have been from the Muslim American or 
Arab American community, who are as concerned about this as 
others. So, yes, in the abstract, let's, you know, let's look 
where the bad guys my come from. Where I am worried about, if 
it is something that operationally either is overinclusive with 
respect to politically-protected speech, I am concerned.
    You know, look, we had a speaker come to our university who 
was friendly with two presidents of religious organizations at 
schools that were involved in plots over in Britain. I have 
chronicled an award-winning piece that I did for the 
intelligence report about a home-grown American Muslim 
extremist who go on college campuses and say all kind of 
things.
    However, the United States Supreme Court has said that 
abstract advocacy of violence is something that is 
Constitutionally protected, and it is separate from 
particularized incitement. Where the problem arises is when we 
have, I think, good people--I work with people in law 
enforcement. I love law enforcement. I am blessed to be the 
least successful law enforcement member of my family.
    But we have to be careful to not cast a wide net that would 
take folks who are merely political dissenters as opposed to 
people who are actually fomenting immediate calls to violence. 
In particular, if we concentrate merely on just one community. 
Because in Orange County, California, we had a recent case with 
an ISIS supporter who wrote a letter and said, ``je suie,'' not 
``je suis,'' ``je suie Al Qaeda.'' You know who turned him in? 
His mother. So we want to make sure that we don't alienate the 
very communities that we need to fight this effort.
    Mr. King. I guess the difference is one of degree, because 
we do have organized crime bureaus, we have narcotics bureaus, 
which are different dimensions of attacks, different types of 
attacks. I just believe that Islamist jihadism is a separate 
form of threat to the United States and it doesn't mean we 
should cut back on organized crime monitoring or going after 
narcoterrorists.
    But there is to me a unique dimension to the Islamist 
threat today, which is why the whole Department of Homeland 
Security was created, why the NYPD has set up a 2,000-person 
counterterrorism unit in New York because of the nature of it. 
They are still looking at organized crime. They are still 
looking for skinheads. They are looking at the drug dealers, 
and they have separate units for all of those.
    But they also have a separate one for counterterrorism 
which is focused right now on the Muslim community in New York 
because that is where the threat comes. As they focused on the 
Italian community during the glory days of the Mafia and the 
Irish community during the days of the Westies and the west 
side of Manhattan.
    So I guess what I am saying, no one is saying go after 
Muslims, but I just think there is a unique dimension to that 
threat which has to be admitted and acknowledged without saying 
all Muslims are evil. When I had my hearings on Islamic 
radicalization, the key witnesses we had supporting my position 
were Muslims.
    So it is not that we are trying to demonize Muslims anyway, 
but that is where the threat is coming from, just as the threat 
from the Mafia came from the Italian American community and the 
threat from the Westies came from the Irish American 
communities. That is really the point I am making on that.
    Mr. Levin. Our center by the way, as I put in our 
testimony, our center regards the Salafist jihadist threat as 
the most profound threat facing our country today. But what I 
am concerned about is that not everyone is as well-versed in 
this area as you are, and there are people who will exploit 
this sliver. We have 2.7 million or more Muslim Americans in 
the United States who exploit the sliver for some kind of other 
agenda.
    We have in the United States, unfortunately, in the words 
of Fareed Zakaria, an Islamophobe industry. We see this on 
different things in the white supremacy world. Any time a Jew 
does something bad, it is a headline on Stormfront. Or anytime 
an African American, you know, spits on the sidewalk, it is a 
big thing on the neo-Nazi sites. All I am saying is we don't 
operate in a vacuum, and we have to let law enforcement 
investigate where the problems are.
    When I was in the NYPD, we had an officer shot to death by 
a mobster, and we went crazy on the mob at that point. The 
Salafist jihadist threat represents the most profound terrorist 
threat to the United States right now. I acknowledge that. What 
I am concerned about is that there are not people who are as 
even-tempered as you----
    Mr. King. Wow, put that in the record.
    Mr. Levin. No, but, you know, you read this stuff every 
day. You know, let me just say, God bless this whole committee. 
God bless this whole committee and the bipartisanship that you 
have shown because my son's safety depends on you.
    Unfortunately, there are people who exploit things. CNN did 
a whole thing where there were people who were not qualified 
who were Islamophobes who were giving trainings to law 
enforcement. You know, we have to make sure that the care that 
you have taken in getting people to come before your committee 
is exhibited by people in law enforcement.
    What sometimes happens is that we get--look, we get into a 
point where conservatives might feel that they are being 
targeted because we look at far right wing. What we have to do 
is approach it in a professional way that you have. We should 
definitely look at the places where extremists are. That is how 
we break up these plots.
    But we also have to be careful that we understand that no 
extremist group has a monopoly and that we exert due care that 
we are not casting such a net as to exclude other types of 
extremists or people who are not, but yet hold politically 
differing views from the two of us.
    Mr. King. Mr. Higgins.
    Mr. Higgins. Yes. Thank you again, Mr. Chairman. Thank you 
for this outstanding panel of witnesses. This has been a very, 
very enlightening experience and we appreciate it very much.
    Mr. Levin, in your testimony you had indicated that former 
FBI supervisor Dr. Carl Jensen, III, writing in this month's 
American Behavioral Scientist that you coedited, forecasted 
over the next 5 years terrorists will make increasing use of 
technology, forge new alliances and hybrid structures, and 
morph between politics, criminal enterprises, and even gangs.
    We on this committee have both a budgetary and oversight 
responsibility. We had mentioned, and I think they have been 
highly successful thus far, the fusion centers, the Joint 
Terrorism Task Force. So structurally, I think law enforcement 
post-9/11 has become more cooperative in the sharing of 
information intelligence, toward the goal of thwarting 
terrorist activity.
    Are the resources available to meet the new trends over the 
next 5 years? If you can comment on that.
    Mr. Levin. Partly so. Again, one of the things I really 
think is important, you know, I reached out to folks in the 
counterterrorism community. These are heroes. I wrote to one 
saying, gosh, I am going before this committee, you know. He 
said, well, I am working from 2:00 in the morning until 10:00, 
you know, contact me. These are people who are 24/7 working on 
things. Here is some of the problems: I think we have to have 
alacrity in pivoting to different threats. Right now, as I 
said, our center regards the Salafist jihadist threat as the 
most prominent one, but it is a close call.
    You know, I remember before Oklahoma City people regarding 
the alarming rise of militias, most of whom, by the way, were 
nonviolent. But we are now seeing in society a splintering. 
There are so many angry, distrustful people. If you look at the 
polls of trust for Congress, of the media, of medicine, of 
academia, it has plummeted in recent decades.
    So people across a broad range can hook into a variety of 
antisocial and conspiratorial ideologies. If I may--and I hope 
I am not, you know, going to get disinvited for another 
hearing--we have to have that alacrity, and that includes if we 
have to look at the Animal Liberation people, let's do it. But 
by the same token, there have been concerns that the 
investigations relating to far right--and I am not talking 
about considered people of good will, who I adore who are my 
closest friends, we have to have alacrity as the threats come 
up, because we are in such a fluid environment.
    If we can depoliticize it. Because, you know, one of the 
things that Attorney General Ashcroft, to his credit, who is 
vigorously opposed to abortion, he went after those violent 
people, who in very similar models to Salafist jihadists use 
faith and the internet to target people.
    What I think we must do is have funding that is not only 
towards the Salafist jihadist threat, which I regard as the 
most prominent one, but also to collecting trend analysis on 
other threats, which many people have come to me off the 
record, say, hey, if you ever get to talk to a Congressman, say 
this. What they tell me--this isn't me. This is people in law 
enforcement and intel saying, can we have a little bit more 
funding and alacrity to look at a variety of threats, 
particularly from the far right but also others as well.
    We might be talking about Jewish extremists next year 
because of what is going on in the Middle East. We might be 
talking about Palestinian extremism. It is a very fluid 
situation, and we have to have that alacrity to pivot to where 
the threat not only is today, but where it will be 18 months 
from now.
    Mr. Higgins. Yeah. See, you know, counterterrorism is all 
about what didn't happen, and you rarely get credit for what 
didn't happen. Fighting counterterrorism, the whole objective 
is keeping things from happening. Perhaps, you know, we are too 
reactive to the previous, or immediate threat and not visionary 
enough to have that fluidity to diversify our efforts to 
anticipate the emerging trends, because obviously that is going 
to be very, very important in our counterterrorism efforts as 
well.
    With that, I will yield back, thank you, sir.
    Mr. King. Thank you, Brian.
    I am going to thank all the witnesses. This has been a 
terrific hearing. I want to thank you for your valuable 
testimony. I want to thank the Members for their questions. 
Also, the Members of the subcommittee may have additional 
questions for you, and so we would like to ask you to respond 
to those in writing if they do come in.
    Now pursuant to committee rule 7(e), the hearing record 
will be held open for 10 days. Without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
